<html>
<title> - [H.A.S.C. No. 113-93] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                                     
 
                       [H.A.S.C. No. 113-93]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

                      AUTHORIZATION BUDGET REQUEST

                      FOR MISSILE DEFENSE PROGRAMS

                               __________

                              HEARING HELD
                              
                             MARCH 25, 2014
                             


                                     
[GRAPHIC] [TIFF OMITTED] 

                                    ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

87-856 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

                                    



                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDREE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, March 25, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Request for Missile Defense Programs......     1

Appendix:

Tuesday, March 25, 2014..........................................    27
                              ----------                              

                        TUESDAY, MARCH 25, 2014
  FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Bunn, M. Elaine, Deputy Assistant Secretary of Defense for 
  Nuclear and Missile Defense Policy, Department of Defense......     5
Mann, LTG David L., USA, Commander, Joint Functional Component 
  Command for Integrated Missile Defense, United States Strategic 
  Command........................................................     3
Syring, VADM James D., USN, Director, Missile Defense Agency.....     4

                                APPENDIX

Prepared Statements:

    Bunn, M. Elaine..............................................    83
    Mann, LTG David L............................................    36
    Rogers, Hon. Mike............................................    31
    Syring, VADM James D.........................................    54

Documents Submitted for the Record:

    Chart used by Mr. Rogers.....................................    95
    Washington Post editorial board statement, March 2, 2014.....    96

Witness Responses to Questions Asked During the Hearing:

    Mr. Brooks...................................................   101

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   111
    Mr. Garamendi................................................   114
    Mr. Rogers...................................................   105
    

  FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, March 25, 2014.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. This committee will come to order.
    When this President was elected he promised to reset with 
Russia, suggesting that the previous administration was to 
blame for a negative relationship with Russia as well as the 
rising of the seas and various other straw men. To support that 
reset, he slashed our missile defenses, which Russia has never 
liked. He didn't trade them to Russia. The President gave them 
away for nothing. This isn't the third site which everyone, 
including our allies, found out about in the middle of a 
September night in 2009.
    He also canceled the Multiple Kill Vehicle [MKV] program, 
the Kinetic Energy Interceptor, and the Airborne Laser and 
other programs. He didn't test the mainstay of the GMD [Ground-
based Midcourse Defense] fleet for 5 years. He has slashed the 
missile defense budget from a projected $9.4 billion to $7.8 
billion in just 1 year. Prior to ever proposing the sequester, 
the President cut more than $3.7 billion out of Missile Defense 
Agency budgets, and then pleads poverty when it comes to our 
East Coast site to protect the United States from an Iranian 
ballistic missile program, which the Intelligence Community has 
consistently warned could reach maturity by 2015.
    If you look at the missile defense budget over time, which 
you can do on the TV monitors around the room--are those up--
you will realize that the fiscal year 2015 budget request 
proposal by the administration is actually the lowest since the 
Clinton administration's fiscal year 2001 budget, which was 
prior to the U.S. withdrawal from the ABM [Anti-Ballistic 
Missile] treaty.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Rogers. But we have a reset with Russia. And, of 
course, today we see the results of this reset on the ground in 
Ukraine.
    We see increasing signs of Putinist intervention in Estonia 
and Georgia. And the President, where is he? He is deploying 
additional U.S. forces to hunt down African warlords before he 
even sent promised MREs [meals, ready to eat] to the Ukraine. 
If you had told me in 2009 that this is where we would be in 
2014, with another 2\1/2\ years of what passes for leadership 
ahead of us, I would have told you not in America. No American 
President would ever surrender our responsibility to lead in 
favor of leading from behind.
    We are here today dealing with the President's fiscal year 
2015 missile defense budget request. We have come full circle. 
The President will propose the policies he wants, but he can't 
get them funded unless we let him. As chairman of this 
subcommittee, I want to make it clear he will get no help from 
me. Weakness is a choice. I choose peace through strength. That 
is why my colleagues Ted Poe and Joe Heck join me in 
introducing a bicameral resolution with Senator Rubio calling 
on the President to declare Russia to be in violation of the 
INF [Intermediate-Range Nuclear Forces] Treaty, something we 
have reportedly known about for years.
    We simply cannot allow Vladimir Putin to continue to think 
he can get away with whatever he wants without consequences, as 
he is doing today in Ukraine and elsewhere. To the witnesses, 
let me be clear these remarks and my concerns do not rest with 
you. Admiral and General, your lifetime of service is a credit 
to your Nation and we owe you a debt of gratitude to you and 
your families. Ms. Bunn, I have reviewed your bio and know that 
you are here today out of a sense of service to our Nation, and 
I thank you.
    But the present trajectory is all too reminiscent to me of 
earlier years of failed leadership and retrenchment. My reading 
of history informs me that each previous era was followed 
quickly by a devastating, and likely avoidable, war. I don't 
know that this time will be any different, but with unanimous 
consent I will add my full statement for the record.
    And with that, I recognize my good friend and colleague, 
Mr. Cooper, from Tennessee.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 31.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman. I thought you sounded 
better with the mic off.
    [Laughter.]
    Mr. Cooper. And I am very glad that you did not read your 
entire statement. Because if it was like what we heard, I only 
shudder at the consequences. This must be an election year. I 
thought that statement, from my good friend, was needlessly 
alarmist and partisan. You know, I yearn for the days when 
Americans pulled together and politics stopped at the water's 
edge, especially in moments of uncertainty and some crisis 
around the world.
    I think it is a serious mistake to just have a political 
policy of blaming everything on the President. I hope that the 
chairman read the memo. Because in the committee memo it says 
things like phase four of the planned deployment of 2020 is now 
terminated. And the committee's own memo says as a result of 
congressional budget actions. The President can be faulted for 
many things, but some parts of the missile defense budget are 
actually increased substantially.
    And for the chairman to blame sequestration on the 
President, saying that he proposed it, sequestration was never 
intended to go into effect. The congressional supercommittee 
was supposed to come up with a sensible solution to our budget 
problems, and yet we still have no solution. So regardless of 
the needless partisan fighting here, I think it is a mistake to 
make broadside charges, like the President virtually ignoring 
threats around the world. Give me a break.
    We are all Americans, we all want a stronger country, we 
all want a strong missile defense, and we all should pay for 
it. So I hope my colleagues, particularly on the majority side, 
will help us figure out to pay for the defense they brag about 
so much. Because we have short-funded defense for a long time, 
and also hamstrung the Pentagon by not allowing the Pentagon 
the flexibility to put money where it needs to be put.
    So I hate to make a statement like this, Mr. Chairman, but 
you were a little bit out of bounds, I thought, in your 
remarks. So let's have a better tone for the remainder of the 
hearing.
    Mr. Rogers. I thank my friend and colleague from Tennessee.
    Lieutenant General Mann, you are recognized for your 
opening statement.

     STATEMENT OF LTG DAVID L. MANN, USA, COMMANDER, JOINT 
 FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED MISSILE DEFENSE, 
                UNITED STATES STRATEGIC COMMAND

    General Mann. Chairman Rogers, Ranking Member Cooper, other 
members of the subcommittee, thank you for your continued 
support of our soldiers, civilians, and their families. This is 
my first appearance before this subcommittee, and it is an 
honor to appear before you today to discuss the importance of 
missile defense for our Nation and the need to maintain these 
capabilities in the face of a maturing threat and declining 
budgets.
    Today, I would like to briefly discuss global missile 
defense operations in the Space and Missile Defense Command/
Army Forces Strategic Command's role as a force provider. To 
accomplish our assigned missions, we have three core tasks. 
First, to provide trained and ready missile defense forces 
today. Secondly, to build future missile defense forces and 
capabilities for tomorrow. And third, to develop future 
technologies for the day after tomorrow.
    In addition, I would like to outline the role of the Joint 
Functional Component Command for Integrated Missile Defense as 
an operational integrator on behalf of Strategic Command. We 
execute four tasks in support of these responsibilities. First, 
to synchronize operational planning. Secondly, to support 
ongoing operations in asset management. Third, to integrate 
training and exercises and test activities. And finally, to 
advocate for future capabilities.
    This subcommittee's continued support of missile defense 
and of our soldiers, sailors, airmen and marines, and 
civilians, who develop, deploy, and operate these missile 
defense capabilities is extremely essential. Again, I 
appreciate the opportunity to talk about the importance of 
missile defense, and look forward to answering any questions 
that you may have.
    Thank you.
    [The prepared statement of General Mann can be found in the 
Appendix on page 36.]
    Mr. Rogers. I thank you, General, and thank you for your 
service.
    Admiral Syring.

   STATEMENT OF VADM JAMES D. SYRING, USN, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    Admiral Syring. Good afternoon, Chairman Rogers, Ranking 
Member Cooper, distinguished members of the subcommittee. I 
greatly appreciate the opportunity to testify in front of you 
today. Our budget request for fiscal year 2015 will support the 
warfighter and needs of the combatant commanders by continuing 
the development of the integrated ballistic missile system to 
protect our Nation, deployed forces, allies, and international 
partners from an ever-increasingly capable enemy ballistic 
missile.
    My highest near-term priority remains the successful GMD 
intercept flight test of the CE [Capability Enhancement]-II 
Exoatmospheric Kill Vehicle [EKV]. In January of 2013, we 
conducted a highly successful non-intercept flight of the CE-II 
EKV. The EKV's performance exceeded our expectations and 
confirmed that we are on the right path to return the GMD 
system to rigorous flight testing. I am confident that we have 
fixed the problem we encountered in the December 2010 test, and 
look forward to conducting FTG-06b intercept tests this summer.
    Sir, I am also optimistic we have identified the root cause 
of the intercept failure of the first generation EKV last July. 
In FTG-07, the CE-I kill vehicle and the GBI [Ground-based 
Interceptor] did not separate from the booster's third stage. 
We have accounted for the issue in our preparations for the 
upcoming flight test, and are working towards a correction to 
the entire fleet before the end of this year.
    With this budget, we will maintain our commitment to build 
out homeland defenses from 30 to 44 GBIs, and take steps 
significantly to redirect the GMD program and up our homeland 
defense. In 2015, we will begin to redesign and approve the GBI 
EKV. The new EKVs will be more producable, testable, reliable, 
cost-effective, and eventually replace the kill vehicle used in 
our GBI fleet. Because we believe that improving our 
discrimination capability will improve the overall performance 
of our existing homeland defense we will begin development of 
long-range discriminating radar, with deployment planned in 
2020.
    The new long-range, mid-course tracking radar will provide 
persistent coverage and improved discrimination capabilities 
against threats to the homeland from the Pacific theater. Our 
budget request continues our strong support of regional defense 
initiatives, and includes investments in our future advanced 
capabilities. Continuing efforts to improve the performance of 
the Aegis weapons system, we will procure 30 Standard Missile 
Block IB guided missiles in fiscal year 2015, plus advanced 
procurement for a multiyear procurement request in fiscal year 
2016.
    We plan to increase the SM-3 delivery rate in the out-
years. In fiscal year 2015, we will also procure 31 
interceptors for THAAD [Terminal High Altitude Area Defense] 
and, pursuant to our agreement with the Army, fund additional 
TPY-2 radar spares and an additional THAAD battery. Phase two 
and phase three of the European Phased Adaptive Approach are on 
schedule and will meet the Presidential mandate for deployment.
    The Aegis Ashore site in Deveselu, Romania, will be 
integrated into the Yukon command and control network, tested, 
and operational by December 2015 to support phase two. This 
budget also supports continued procurement of equipment for 
Aegis Ashore in Poland, which is planned to be operational in a 
2018 timeframe. The SM-3 Block IIA, under co-development with 
the Japanese government, and an upgraded version of the Aegis 
weapons system are also both on schedule and available for 
deployment in 2018.
    We are preparing for Aegis Ashore flight tests at the 
Pacific missile range facility in Hawaii this year and again in 
2015. In 2015, we plan to conduct 15 flight tests. We will 
continue to test elements of the system to demonstrate that 
they work before they are fielded. Our advanced technology 
investments will enable us to deploy a future BMDS [Ballistic 
Missile Defense System] architecture more capable of 
discriminating and killing reentry vehicles with a high degree 
of confidence. It is vital that we provide the warfighters the 
most advanced, cost-effective, and reliable weapons systems 
they need to do their jobs.
    Thank you, Mr. Chairman. I look forward to the committee's 
questions.
    [The prepared statement of Admiral Syring can be found in 
the Appendix on page 54.]
    Mr. Rogers. I thank you, Admiral.
    And Ms. Bunn, the floor is yours to summarize your 
statement.

  STATEMENT OF M. ELAINE BUNN, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY, DEPARTMENT OF 
                            DEFENSE

    Ms. Bunn. Thank you, Chairman Rogers, Ranking Member 
Cooper, distinguished members of the subcommittee. Thank you 
for the opportunity to testify today on the Department's fiscal 
year 2015 budget request. And I do want to thank all of you for 
your contributions in providing for the common defense.
    Missile defense is a critical national security priority, 
both for the protection of the United States and for the 
defense of our deployed forces and our allies. I would like to 
submit my full written statement for the record, but I will 
highlight a few key points now, if I could.
    Our first missile defense policy priority is the defense of 
the United States against the threat of limited ballistic 
missile attack. We currently have coverage of the U.S. homeland 
against potential ICBM attacks from states like North Korea and 
Iran. To ensure that we stay ahead of the threat, we are taking 
several steps to strengthen our homeland defense posture. We 
are deploying 14 additional interceptors in Alaska and a second 
missile defense radar to Japan, and requesting funding for the 
development of a radar that, when it is deployed in Alaska, 
will provide persistent sensor coverage and improved 
discrimination capabilities against threats to the homeland 
from North Korea.
    Also for homeland defense, as Admiral Syring mentioned we 
are initiating a redesign of the kill vehicle for the Ground-
based Interceptor. Investment in the next generation kill 
vehicle for the GBI is especially important, considering the 
issues associated with the current kill vehicles that were 
discovered during testing. As directed by Congress, MDA 
[Missile Defense Agency] is also evaluating four potential 
locations in the United States for additional interceptors.
    Conducting the evaluation and the associated environmental 
impact statement process will shorten the construction 
timelines associated with deployment of a new missile site. We 
have not made a decision to build an additional missile field 
in the United States. While an additional missile defense site 
could be used to improve our homeland defenses in the future, 
our highest funding priorities are focused on improving 
interceptor reliability and performance along with improving 
sensor coverage and discrimination for homeland defense.
    Strengthening our regional missile defense posture is also 
a key policy priority. We are continuing to implement regional 
missile defenses that are tailored to Europe, to the Middle 
East, to Asia-Pacific. Our focus is on developing and fielding 
capabilities that are mobile and capable of being redeployed, 
as necessary, to address the threat. We are also encouraging 
our allies and partners to acquire missile defenses and to 
strengthen operational missile defense cooperation.
    Our missile defense deployments to Europe are especially 
important for reassuring allies of our commitment to the 
security of the NATO [North Atlantic Treaty Organization] 
Alliance. We already maintain a missile defense ship presence 
in the eastern Mediterranean, along with a radar deployed in 
Turkey; those have been there since 2011. And our plans to 
deploy Aegis Ashore sites to Romania in 2015 and Poland in 2018 
are, as Admiral Syring said, on schedule.
    With regard to talks with Russia on transparency and 
cooperation, Russia's intervention in Ukraine, in violation of 
international law, led to the suspension of our military-to-
military dialogues, including DOD [Department of Defense] 
civilians. And we have subsequently not continued to engage 
Russia on the topic of missile defense.
    In summary, we have made very significant progress 
deploying missile defenses and cooperating with allies and 
partners, but we cannot afford to stand still. The President's 
budget request reflects our goal of retaining the flexibility 
to adjust and enhance our defenses as the threat and 
technologies evolve. Thank you for inviting me here today.
    And I look forward to your questions.
    [The prepared statement of Ms. Bunn can be found in the 
Appendix on page 83.]
    Mr. Rogers. I thank you, Ms. Bunn. And I will start off 
with the questions.
    Admiral Syring, I am concerned with Russia's behavior 
threatening our allies, including the illegal invasion of 
Ukraine and its violation of the INF Treaty. Are you concerned 
about those things?
    Admiral Syring. Yes, sir.
    Mr. Rogers. Can you tell me what is the organic capability 
of the Aegis Ashore to detect cruise missiles?
    Admiral Syring. It is currently not configured for cruise 
missiles. It is configured against the ballistic missile 
defense threat.
    Mr. Rogers. What would be the capability if we deployed the 
SM-2s and the SM-6s at those sites, in addition to the SM-3s?
    Admiral Syring. Again, sir, it hasn't been designed for the 
SM-2. As you know, we have a seaborne capability with SM-2s and 
SM-6s that is possible. Sir, I would have to defer to Policy or 
State Department on that needed capability.
    Mr. Rogers. What is the functional difference?
    Admiral Syring. Essentially, the software, with a minor 
hardware addition.
    Mr. Rogers. You made reference in your testimony, and Ms. 
Bunn confirmed, that you are on time for the Romania and Poland 
Aegis Ashore sites. If the President were to come to you and 
say I need you to step that up, as a consequence of the 
Ukrainian activity by Russia, would you be able to, if he gave 
you the money, if money was not the issue, to step that up and 
make it happen quicker?
    Admiral Syring. We have analyzed that. It can be done 
quicker if money were available. But the budget request 
supports a 2018 fielding at this point.
    Mr. Rogers. Okay. I support the additional funding of the 
GMD program that you have requested for a new redesigned kill 
vehicle and new investments in discrimination. Absent these 
investments, however, the GMD system is actually being cut in 
your fiscal year 2015 budget. Why?
    Admiral Syring. If I can, sir, talk about the overall--I 
will talk about the GM program, but let me put it in the 
overall homeland defense category. In terms of--you and I have 
had many discussions on the need to improve our homeland 
defense. And that includes increasing our discrimination 
capability, increasing our long-range radar capability, getting 
started with the redesign of the EKV; all fundamental parts of 
homeland defense.
    And those were marked increases in this year's budget. And 
the GM budget did go down slightly. But with the addition of 
the EKV and the other aspects of homeland defense, I am 
confident we are on solid footing. That said, a big part of 
what I will do, and have been doing, is looking inside the 
fundamentals of the GM program, the first of which was the EKV 
development which I recommended and then the Department 
supported.
    There are other aspects of the GMD program that I will be 
looking at in the 2016 budget submission for increased funding.
    Mr. Rogers. Are we making sufficient investments to pay for 
the life cycle, maintenance and aging and reliability for this 
10-year-old system which, as you know, was deployed with a 20-
year design life?
    Admiral Syring. Not as much as I would like.
    Mr. Rogers. Okay. And finally, Admiral Syring, and then I 
will yield and, hopefully, have a second round of questions. 
But I do want to ask you, your budget request for 2015 includes 
funding for several important new initiatives for homeland 
missile defense, including a new long-range radar, new 
discrimination systems, and a new homeland defense kill 
vehicle. What happens to these investments if the sequestration 
returns in 2016, as is currently the law of the land?
    Admiral Syring. Everything would be put back on the table 
for reconsideration and, possibly, stopped.
    Mr. Rogers. Thank you.
    On that depressing note, I will yield to my friend and 
colleague, Mr. Cooper, from Tennessee.
    Mr. Cooper. The chairman and I actually get along very 
well. We had a nice breakfast together, talking about 
submarines. It is amazing to me that I was blindsided by his 
statement. And also, I think, the tone is just unfortunate. But 
rather than prolong that, I think it is important that the 
public get the facts. Of course, we in a democracy operate at a 
disadvantage because other nations don't have hearings like 
this and they don't air their dirty laundry to the world and 
they don't express disagreements.
    I hope that the public understands that, you know, we can 
have as strong a defense as we want to have, but just got to 
pay for it. Not borrow the money from China, as we have been 
doing. And in terms of getting more money for projects, the 
Pentagon testified for us, the Secretary of Defense, the 
Chairman of the Joint Chiefs, and the Comptroller, that 
currently, in the Pentagon, we have 25 percent surplus 
capacity. And this Congress, this committee, refuses to allow 
the Pentagon to do anything about that because those bases are 
located in particular Members' districts.
    So people who complain about a shortage of funding, and 
then don't allow the Pentagon to prioritize, are people who are 
not willing to fund our warfighters overseas and at home, 
should stop complaining. This budget--you know, we wish it 
could be better, and it can be better if Congress has the 
gumption to vote for a better or stronger budget. Left unsaid 
in the chairman's remarks is the last three tests of Ground-
based Interceptors have failed, and we have to acknowledge 
that.
    And that doesn't mean it is a bad program. When America 
ventured into rocketry, many of our missiles failed. But we 
solved those problems. We are a can-do nation and, as the 
admiral testified, we will solve this problem. I hope your 
confidence is not misplaced right now because the next test is, 
what, in June? So----
    Admiral Syring. Yes, sir.
    Mr. Cooper. So, you know, I want to be an optimist about. 
But the GAO [Government Accountability Office] and others have 
reported that, you know, we should--and I think the admiral 
supports this, we should fly before we buy. Don't get a pig in 
a poke. This idea of concurrent development has stung this 
committee and stung the American taxpayer for a long time. So 
we want to be as strong as we can be, but there are certain 
limits to technology so far. And let's push those limits, let's 
make it happen.
    Everyone wants to do all they can for Ukraine and the good 
folks over there right now, but we have to be prudent and 
thoughtful in the way we propose interventions. And this is not 
a foreign policy committee. We should be an enabling committee 
to allow the Pentagon to have the weapons systems and the 
troops that it needs. Someone once said that sequestration was 
worse than any enemy attack that had ever been launched on us 
because it hit so many points in Pentagon programs that no 
enemy could have been that innovative, that creative, that 
forceful to disrupt so many of our operations.
    Well, this committee has the power to start stopping that 
mess if we have got the gumption to do so. So I appreciate the 
witnesses being here. I hope that we can limit the political 
talk during an election year. Everyone on this subcommittee, to 
my knowledge, is for a strongest possible missile defense. You 
know, we will make that happen. And quibbling over this or that 
does not really strengthen the country.
    I yield the balance of my time.
    Mr. Rogers. We really are good friends. You ought to hear 
me and my wife if you think this is bad. Who is next?
    Mr. Franks of Arizona is recognized for 5 minutes for any 
questions he may have.
    Mr. Franks. Well, thank you, Mr. Chairman. And thank you, 
Ms. Bunn, for being here and your contribution to the country. 
And Admiral Syring and General Mann, I want to say a special 
gratitude to you and all of the people in uniform. I think that 
your station in this arsenal of freedom is almost impossible to 
overstate in its importance. So many people across the world 
may not realize it, but we all owe you a debt of gratitude for 
your commitment to the peace and security, really, of the whole 
world. And I am grateful to you.
    With that, I have to go on record here as associating 
myself very vigorously with the chairman's opening statement. 
Some of the debates that he outlined not only were on target, 
in my judgment, but far preceded any election year. And 
sometimes the importance of facing mistakes presently is to, 
hopefully, prevent repeating them. And so I want to go on 
record that way.
    Admiral Syring, today we see the smallest budget request 
for missile defense in the 5 years that this President has 
submitted a budget to Congress. And if one were only to look 
objectively at our budget, I think he or she would think that 
the world is much more safe and that the ballistic missile 
proliferation is not rampant and at historic levels. But 
putting aside my own personal feelings about what I believe to 
be an extremely dangerous trend, I am curious about the future 
of ballistic missile defense.
    We have a request for only $13 million for directed-energy 
technology. And can you tell the committee what other promising 
technologies the agency is working on, and what is the best 
hedge strategy, and what about the amounts we are spending 
today for limited ballistic missile defense? And how we best 
can prepare for the future to include the new EKV and the MKV.
    Admiral Syring. Sir, let me cover all that at once. And I 
will string this together in a coherent explanation. The $13 
million that you spoke about is really the work that is going 
on at the two facilities that are doing our experimentation: 
MIT [Massachusetts Institute of Technology] Lincoln Lab, and 
DARPA [Defense Advanced Research Projects Agency], which are 
teamed; and then Lawrence Livermore out on the West Coast. They 
are working on two very promising technologies in the solid-
state laser arena.
    And it is technology, it is high-end technology. To do what 
they are doing, with an eye towards someday how do you package 
that into something that could be put into an airborne platform 
or a sea-based platform, it is a very, very difficult problem. 
They are both making progress. The DPALs--diode-pumped alkali 
laser system--out at Livermore is tested to 4 kilowatts. It 
will be to 10 kilowatts by the end of 2015.
    MIT has made a little bit more progress, but for a 
different reason--and I will explain that--is at 20 kilowatts 
with a plan to scale to 30 by the end of--30 kilowatts by the 
end of 2015. It is somewhat paced by funding, unfortunately. 
But the reality of the budget is such that the technology is 
moving in line with where the budget is in terms of technology 
can only move so fast. We could go faster, but we are moving at 
the pace of demonstration, at this point.
    It is new inventions. It is critical to where we want to 
be, both for discrimination technology in terms of being in the 
hundreds of kilowatt regime, to the high-end, high-power laser 
hard kill capability, which we need to be at a megawatt, or 
higher even, which we demonstrated on an airborne laser. So 
there is seed work going on there. There is work, as well, in 
the classified arena, which I can't speak today about but would 
be happy to talk to you and the committee about that in a more 
substantial manner.
    Certainly, lasers and laser technology is where we want to 
be from a discrimination standpoint. And I would submit, down 
the road, to change the cost equation on cost-per-kill on the 
hard kill side, as well. So I agree with that.
    Mr. Franks. Thank you.
    Admiral Syring. There--if I can, just one more, sir. There 
is also a lot of other classified programs that I can explain 
off-line.
    Mr. Franks. I look forward to that.
    Mr. Chairman, some of us--and I know you are, as well--
concerned very much about the sequestration. And just for the 
record, that was indeed proposed by our President. And there 
are many of us on this committee that voted against that simply 
because we were afraid that, indeed, the sequestration would 
take place. And this makes it difficult, I know, for multiyear 
procurement authority.
    And related to the SM-3 IB, Admiral Syring, why is this 
multiyear procurement authority from the Congress in fiscal 
year 2015 so important?
    Admiral Syring. Very important for us to get the production 
quantities up. You and I have discussed that we, ideally, want 
to be at 52 interceptors per year from a manufacturing 
standpoint. Obviously, our request this year is less than that. 
But I would just urge the committee to look at our fiscal year 
2013 and 2014 budget requests, and the timing of those contract 
announcements, in total. In terms of in the last few months we 
have put 33, plus up to 50, interceptors under contract in the 
last 6 months or so.
    So 83 or 84 interceptors. These 30 will be added to that by 
the end of the year. So in a period of 15 months we will have 
put under contract over 100 interceptors. And as you know, sir, 
that was paced by some of the technical development problems 
that we had with the divert system. And we are past that, and 
confident that we are in a stable baseline, and ready for a 
multiyear.
    Mr. Franks. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The gentleman from California, Mr. Garamendi, is recognized 
for 5 minutes.
    Mr. Garamendi. Thank you. I would like to go back to the 
directed energy; a significant reduction year to year, down to 
14. I personally have thought this would be something that we 
should be spending substantially more money on and we ought to 
be advancing it for reasons that we have discussed and probably 
ought not go into in great detail here.
    But I am looking at this, and wondering if we were to move 
$10 million from another part of your account to directed 
energy--for example, delay the purchase of a missile for a 
month, 2 months--and put in directed energy, what would that 
mean to that missile program if we were to switch around and 
add another $10 million or, let's say, $15 million to the $14 
million that is there.
    Admiral Syring. Every----
    Mr. Garamendi. So which program would you like to cut by 
$15 million?
    Admiral Syring. Sir, as you know, every interceptor, as I 
told Mr. Franks, is important to the warfighter, at this point. 
We are trying to get our interceptor quantities up for both 
that and SM-3 at rates that we are not yet to.
    Mr. Garamendi. Okay, so we don't go to interceptors. Where 
would you like to take $15 million?
    Admiral Syring. Can I take that for the record?
    Mr. Garamendi. No.
    Admiral Syring. If I can, sir, just answer the--I will 
answer the question directly, in terms of there is a pace to 
technology maturation here on both of the concepts that we are 
pursuing. And throwing--I don't want to say ``throwing''--
adding more money could help a little, but not a lot. And as 
long as we stay on track to demonstrate this by the end of 
2015--and I gotta tell you, sir, both concepts are promising 
for different reasons--as long as you hold me to that, and I 
make the goal of where I said I was going to be by the end of 
2015, I think we are on the right track here.
    The scaling and packaging is the next big hurdle that we 
are looking at in parallel.
    Mr. Garamendi. So there is no program--so every other 
program is more important than--a few moments ago you said you 
could and would put more money into it if you could--had that 
money available. So every other program is more important than 
this one, than adding money to this one.
    Admiral Syring. The pace at which we are moving, and the--
where we are with the experiments and the tests that are going 
on, are driven more by the technology than money at this point.
    Mr. Garamendi. Okay. You and I are going round and round, 
and we are not going to get to a conclusion. But the 
information I have is that another $10 million to $15 million 
would substantially advance this program.
    General Mann. Congressman, if I----
    Mr. Garamendi. General, it looks like you want to jump into 
this.
    General Mann. Well, I would just like to add, as you know 
the Army is also involved in directed-energy technologies. And 
we have already successfully tested a 10-kilowatt system back 
in December, currently about to do another joint test of that 
10-kilowatt system in May down in Florida. In addition, we are 
looking at taking that technology, which right now has a range 
of a little bit more than 5 miles--and it is really primarily 
focused against cruise missiles, UAVs, counter rockets, 
artillery mortars, and whatnot.
    We are looking at taking that technology and, hopefully, 
being able to mature it, as Admiral Syring is talking about, to 
a 50-kilowatt capability that will give us extended range. So--
--
    Mr. Garamendi. Is that--please continue.
    General Mann. So I just wanted to add that in addition to 
what the Missile Defense Agency is working on we also, internal 
to the Army, are also looking at that because of the nature of 
the threat out there; cruise missiles, UAVs and the RAM 
[rocket, artillery, and mortar] threat that is out there.
    Mr. Garamendi. Is your technology different than the two 
technologies that Missile Defense is pursuing?
    General Mann. It is solid state, it is directed. His is a 
little bit looking at a higher level, looking at a different 
threat set than what we are looking at. We are really looking 
at a lower-level threat set.
    Mr. Garamendi. I think there is--we have three different 
technologies, then. Raising the question of three different 
technologies because the Army wants to do it different than 
Missile Defense, or is it something different in the 
technology, some reason why we have--why we are pursuing three 
different technologies?
    General Mann. I would say, and I will defer to Admiral 
Syring, I think that the premise of the technology as far as 
being directed energy is pretty much the same. But we are 
looking at different threat sets. And taking out an air-
breathing threat, or taking out a ballistic missile is a lot 
different than taking out a mortar.
    Mr. Garamendi. I understand that, but that is not where my 
question is going. I am out of time, but I want to find out why 
we have three different technologies and whether we might want 
to choose one or the other--or one of them, and move forward 
with that at some point in the near future.
    I will let it go at that. I am past time. Thank you, Mr. 
Chairman.
    Mr. Rogers. I thank the gentleman.
    Go now to the gentleman from Colorado, Mr. Lamborn, for his 
5 minutes of questions.
    Mr. Lamborn. Thank you, Mr. Chairman. And Admiral Syring or 
General Mann, how important is it that we keep moving forward 
on an East Coast site to stem the threat of an Iranian attack?
    General Mann. I will go ahead and start, because Admiral 
Syring has been getting a lot of love in here up front here. 
So----
    [Laughter.]
    Mr. Lamborn. That is true. We love him.
    General Mann. You know, obviously, by having an East Coast 
site it does provide dispersal of our systems, rather than just 
being a Greeley or at Vandenberg Air Force Base, having a third 
site will basically disperse the arsenal, number one. Number 
two, because of the location of the East site it gives us more 
battle space or more decisionmaking time for threats emanating 
out of the Middle East. So from that standpoint, that is also 
additive.
    And third, it is more--pardon the vernacular--more arrows 
in the quiver. We have more capability, not necessary--or, 
excuse me, more capacity, not more technological capability. 
And so as a result, we have more of an ability to address a 
raid-size threat that might be used against the U.S.
    Mr. Lamborn. With that in mind, from the operational 
perspective that you just gave us, should we be doing more from 
a planning and budget perspective? I mean, the administration 
is going along with what Congress has directed it to do, but no 
further. Should we, and could we, be doing more?
    General Mann. We could always do more. I think if you are 
looking for my recommendations, Congressman, I would say that 
dealing pragmatically with the budget the way it is, I think 
that the best investment for the taxpayer is to increase our 
sensor capability and discrimination. That, right there--and 
increasing the reliability of EKVs. That is where, if you were 
asking for my recommendation, that is where I would put the 
next dollar.
    Mr. Lamborn. Admiral, do you or, Ms. Bunn, do you have 
anything to add to that?
    Admiral Syring. The warfighting advantage was well-
explained by General Mann. We, obviously, agree with that 
entirely. In terms of are we doing enough, the work that we 
started with the four--the downselect of the four sites, and 
all of the EIS [environmental impact statement] work that is 
going to go on over the next 2 years, is setting the stage for 
a decision if the Department were to make that decision. And 
that has got to play out.
    We are aggressively--we are on an aggressive EIS timeline, 
if you compare it to history. And there is a lot of work that 
has to go on in terms of site surveys, all of the town halls, 
everything that will go on in parallel. I think you will see 
the combatant commanders debate this requirement and debate the 
need. And I think General Jacoby and Admiral Haney will be in a 
good position to address that next year.
    I think that we are--I think, as General Jacoby testified, 
we are setting ourselves up in time for a decision. And you 
have heard me talk about the need to think near-term, mid-term, 
and far-term. And I have always characterized the mid-term as 
the 2020 timeframe.
    Mr. Lamborn. Okay.
    Ms. Bunn.
    Ms. Bunn. I think it has been well-addressed, and I would 
agree with----
    Mr. Lamborn. Then let me ask you a question. Are we doing 
enough against potential Chinese threats, including cruise 
missiles or submarine-borne ballistic missiles?
    Ms. Bunn. As far as defense of the homeland, our homeland 
defense is geared toward states such as North Korea and Iran. 
With regard to regional missile defense, China does have a 
number of short- and medium-range ballistic missiles. And that 
is part of why we are going forward in the Asia-Pacific.
    Mr. Lamborn. Well, and I didn't mean, you know, hundreds of 
missiles. I meant a rogue missile or an unauthorized or 
accidental launch is what I was referring to.
    Ms. Bunn. Yes, sir. We haven't designed against missiles 
from Russia or China. But if there were an accidental or 
unauthorized launch, we would do what we could to defend 
against it.
    Mr. Lamborn. All right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from Georgia, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you all for 
being here. I would ask each of you to respond to this 
question. Has the improved missile defense of ballistic missile 
systems made cruise missiles more attractive to our 
adversaries? And if you could also just give your--give us your 
current assessment of the cruise missile threat.
    General Mann. Thank you, Congressman. I think it is fair to 
say that cruise missile technology is being looked at by a 
number of nations. Nine right now are currently producing this 
capability. I think 20 more are looking into this kind of 
technology. So I think it is fair to say that cruise missile 
technology is something that many nations are looking at. And, 
as a result, you know, we also are looking at our defenses 
against that.
    Right here in the National Capital Region [NCR], as you 
know, we are about to put the joint attack cruise missile 
defense elevated sensor, that Aerostat [Tethered Aerostat Radar 
System] there at APG, at Aberdeen Proving Ground, to do a test 
on behalf of NORTHCOM [U.S. Northern Command] to look at how do 
we do a better job of sensing an incoming cruising missile and 
being able to defeat it, utilizing some of the systems that we 
have around this area like the NASAMS [National Advanced 
Surface-to-Air Missile System] missile, for instance.
    So that is one of the things that we are looking at right 
now, at how do we bolster up, in terms of the NCR, our ability 
to address that threat. I talked earlier about high-energy 
laser technologies. And that is something that the Army is also 
looking at in terms of countering the cruise missile threat 
that might be out there. So this is definitely an area that 
many countries are looking into.
    Admiral Syring. I would just add to the general's point 
that I--from a ballistic missile standpoint, which is my job, I 
don't see any of that threat deescalating in favor of cruise 
missile threat. I see these both increasing at a very rapid 
pace.
    Ms. Bunn. I would agree that we don't want ballistic 
missiles to be a free ride for a potential adversary, nor 
cruise missiles either.
    Mr. Johnson. Thank you. Also, understanding that you are 
performing environmental impact statements for four potential 
sites, what is the rough-order estimated cost of the East Coast 
missile defense site?
    Admiral Syring. The estimate that we have gone on record is 
in the rough order of $3 billion to $4 billion, which would 
include the site and 20 interceptors. Now, that will be refined 
as we study, in more detail, the four sites that we are looking 
at. And that cost estimate will be submitted as part of the 
contingency plan updates that we provide the Congress over the 
next 2 years.
    Mr. Johnson. I want to ask all of you this question. Is one 
successful flight intercept sufficient to give us sufficient 
confidence to invest additional billions of dollars in 
deploying and procuring 14 additional GBIs?
    Admiral Syring. Let me take that, and then General Mann, 
from a deployment standpoint, can address the warfighter 
confidence with deployment. As the chairman has said, as the 
ranking member has said, the last three flight tests are--we 
are 0-for-3 in terms of intercept tests.
    Mr. Johnson. They were what?
    Admiral Syring. Zero-for-three in the last three intercept 
tests that were conducted. The history of this program is that 
in intercept tests in the GM program it is actually 8 for 16; 
15 if you count it somewhat different. The CE-I, and I won't 
throw too much configuration jargon here, but the oldest 
version that was deployed first was actually 3-for-3 before the 
last failure in July. So 3-for-4 of that version.
    What we are talking about in terms of that is one of the 
three past failures, there were two failures in a row of the 
new one, of the new configuration. One failed because of the 
lock wire missing, and one failed because of excessive 
vibration in the inertial measurement unit. Both very 
mechanical in nature. The first one, obviously, quality in 
nature. So your point is, if we go and test again this summer 
what does that mean in terms of our confidence to continue 
production and deployment of the missile.
    And I will let General Mann ask the--answer the deployment 
question. But if you think about sort of the new version, with 
the corrections, was flown back in January of 2013 very 
successfully. It was a non-intercept flight, but we put it in 
space and put it through its paces. This will be the intercept 
test, this summer, of that configuration.
    And in this year's budget request there are three more 
intercept tests scheduled for 2015, 2016, and 2017, of the 
latest configuration. And I would say all of those will be the 
benchmarks of confidence for the warfighter to deploy the 
system.
    General Mann. Congressman, I agree with General Jacoby's 
assessment. We have confidence in the current capability. Do we 
need to do more? Do we need to continue to do the necessary 
testing? Yes. But we have confidence in the operational 
employment, the rules of engagement that we would use that 
would address maybe some reliability or some uncertainty 
associated with the system.
    I think what is key is that, as Admiral Syring was talking 
about, is that we sustain a make-sense test program, from year 
to year, we maintain that. Make sure that has the 
predictability that it needs. That we continue ongoing efforts 
to redesign or to upgrade the current EKV, as well as looking 
at leap-ahead technologies. So don't know if that answers your 
question.
    But I think that the way ahead is pretty well stated. We 
will see what happens with this test coming up. And also, as 
Admiral Syring stated, before last summer's CE-I failure they 
had three successful intercepts right before that.
    Mr. Rogers. The gentleman's time is expired.
    The chair now recognizes the gentleman from Ohio, Mr. 
Turner, for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman. Just one quick comment 
in defense of our chairman. I believe our chairman cited the 
Washington Post's March 2nd editorial that had the heading 
``President Obama's Foreign Policy is Based on Fantasy.'' And I 
just want to underscore the fact that the Washington Post is 
certainly not up for reelection, and they certainly are not 
seen as being partisan against the President.
    So considering that they are--that their comments are 
consistent with our chairman, I believe that it is certainly 
important for him to raise the issues as to how the policy of 
the administration affects the issues that are within the 
jurisdiction of this subcommittee. I would like to ask, if the 
chairman has not, that that editorial be entered into the 
record of this hearing.
    Mr. Rogers. Without objection.
    [The information referred to can be found in the Appendix 
on page 96.]
    Mr. Turner. Ms. Bunn, we had a chart that was up that said 
that this is the budget request for missile defense represents 
the smallest missile defense budget request since Bill Clinton 
was President. I was reading your bio. It struck me, and it 
seems, and I hope I am not mistaking this. But I was reading 
all the different positions that you have. It seems that your 
position, which now includes missile defense policy, that the 
last time that you had a title that also included the words 
``missile defense policy'' was the Clinton administration. Is 
that correct?
    Ms. Bunn. Yes, sir. That was the last time. The first time 
was in the Reagan administration, and then the George H.W. Bush 
administration.
    Mr. Turner. Well, sometimes things repeat themselves. What 
disturbed me about that was, when I read the conclusion to your 
statement, it says, ``The ballistic missile threat to the 
United States or our allies and partners, and to our forces 
overseas, is evolving. And we continue to grow and adapt our 
homeland and regional missile defense posture and international 
cooperation to address it.''
    Now, from my perspective in looking at that chart, and 
where we have been and where we are going, I mean, we were 
going to be at a position where the Alaska missile field was 
complete and there were going to be GBIs, ground-based, forward 
deployed in Europe. This administration cut completing the 
Alaska field, and then cut the forward base missiles that was 
to be the third site. Do we have any request for the 
implementation of what had been the phase four of the Phased 
Adaptive Approach by the administration?
    Ms. Bunn. Sir, when I said--talked about the growth, I was 
referring to the additional 14 interceptors that we have 
decided to deploy.
    Mr. Turner. To where?
    Ms. Bunn. For the--for homeland defense.
    Mr. Turner. Where are they deployed?
    Ms. Bunn. They will be deployed in Alaska.
    Mr. Turner. But those are the ones that were already 
scheduled. So you can't say you are growing something, when you 
have cut it and then you decide to put back a portion, but not 
all, of what you cut. So my question to you was, is there any 
budgetary request that includes funding of any portion of the 
implementation of what was phase four, the Phased Adaptive 
Approach?
    Ms. Bunn. No, sir----
    Mr. Turner. No, there is not.
    Ms. Bunn. The replace----
    Mr. Turner. So we don't grow, we actually only have a 
replacement of missiles that the Bush administration had 
proposed, correct? You can turn your mic back on. I am not 
finished.
    Ms. Bunn. Sir, they had originally wanted 14 more. A 
decision was made to go toward defending Europe against Iranian 
threats. And so that was--funding was----
    Mr. Turner. So the answer is just yes, right? I mean, 
just----
    Ms. Bunn. The answer is yes.
    Mr. Turner. Right, right. So you haven't grown it. You 
first cut the missiles in Alaska, then you cut the forward 
deployed missiles, then you are going back and putting some 
more in Alaska. And that is still not a net growth. We are 
still behind. You say we cannot afford to stand still. We are 
not, we are moving backwards.
    I appreciate the analysis that we had on the third--what 
the--excuse me, the East Coast missile defense, gets us. And 
there are terms that people banter around on validated military 
requirement. And I wanted you to help us on that. Because it 
seems to me there are only three ways to criticize this. That 
there is no threat, we don't need it yet, and money. And I 
think we can resolve all those.
    But then they throw in this validated military requirement. 
Admiral Syring, could you please describe what validated 
military requirement is, and tell us how does that relate to 
any MDA system for the Phased Adaptive Approach for SM-3 to an 
interceptor, any?
    Admiral Syring. Yes, sir. As you know, MDA is not under the 
JCIDS [Joint Capabilities Integration Development System] 
process and the joint staff requirements process. When I talk 
about a validated requirement in missile defense terms, I am 
think--I am talking about a requirement that is on the STRATCOM 
[U.S. Strategic Command] priority capability list or the 
NORTHCOM integrated priority list. And if there is a 
requirement that is in there that talks to, for example, the 
East Coast missile site that, to me, is a requirement.
    And we can go back to those lists and we can trace things 
that we are building, systems that we are providing, to those 
requirements in the capabilities list.
    Mr. Turner. Well, Mr. Chairman, I appreciate that our 
debate continues to be on the issue of threat and timing and 
money. Because I think anybody who has had any of the 
classified briefings on this know that the threat is there, the 
timing is now, and the dollars need to be placed there by this 
Congress. Thank you.
    Mr. Rogers. I thank the gentleman. And just for the record, 
I know I have had this conversation with both General Mann and 
Admiral Syring in private, but I very much support directed 
energy and I support what Mr. Garamendi was talking about a 
little while ago. And if, in fact, it is just a matter of y'all 
needing some more money, I hope you will let us know. Because 
we may not be able to get you to find it, but we will figure 
out a way to find it. Because I think that is the future, and I 
would like to see us be aggressive in pursuing that technology.
    Oh, Mr. Brooks. He came back. I am sorry. The chair now 
recognizes Mr. Brooks for any questions he may have.
    Mr. Brooks. Thank you, Mr. Chairman.
    Admiral Syring, on virtually all major missile defense and 
strategic missile programs, such as PAC-3, Aegis, THAAD, and 
Minuteman, testing is typically conducted multiple times a year 
to ensure ongoing reliability and operational readiness. 
However, since the inception of the Ground-based Midcourse 
Defense program, testing occurs sometimes less than once a 
year. And, unfortunately, testing seems to be driven more from 
problems that arise instead of catching issues that could be 
caught long before they arise if a more robust testing program 
was in place.
    Do you agree that the more testing we do on a more frequent 
basis would help the GMD system?
    Admiral Syring. Yes, sir.
    Mr. Brooks. Why?
    Admiral Syring. Testing is the ultimate graduation exercise 
to the systems that we are fielding. And ground-based testing 
is necessary, but not sufficient. Ideally, sir, you are 
absolutely right. That we want to be, you know, out in front 
and testing the new capabilities, new reliability improvements 
that are added to graduate them to the fleet. And that is where 
we want to be on an annual basis, at a minimum.
    Mr. Brooks. Well, what is holding us back from conducting a 
more robust testing program?
    Admiral Syring. Technical issues on the new interceptors 
was the biggest reason for the delay. And you know when I came 
in as the director my priority was to go back and get a CE-I 
interceptor flight-tested as soon as possible, and we did that.
    Mr. Brooks. Is funding an issue with respect to those 
technical issues?
    Admiral Syring. Funding is always an issue, and we are 
always prioritized. But I can assure you that we didn't go any 
slower because of funding to resolve the technical issues.
    Mr. Brooks. All right, thank you.
    General Mann, please switch hats for a moment to your hat 
as commander of space--excuse me, Army Space and Missile 
Defense Command. Why is the Conventional Prompt Global Strike 
capability important?
    General Mann. Congressman, that capability provides us the 
ability to strike anywhere in the world in under an hour. And 
don't necessarily need to have a forward-deployed element that 
is out there to be able to do that. It also allows us to 
address time-sensitive targets or targets that are fleeting. I 
would say it also provides a capability if we were to enter 
anti-access or area-denial environment, where the lodgment or 
the forward operating bases may be contested. So it does 
provide a capability to be able to address some of those 
issues.
    Mr. Brooks. I have been informed the Navy is evaluating the 
basing of such capabilities on submarines. Do you support that 
view?
    General Mann. Congressman, I know that, you know, the Navy 
is looking at this technology. What I can tell you is, my 
command, as you know, very, very proud of the efforts of the 
folks there in Redstone as well as Sandia Labs on our 
successful test that took place back in November 2011. And we 
are encouraged, we are on track to execute the August test.
    And then from there, you know, we will take direction from 
OSD [Office of the Secretary of Defense] as to where they want 
to go. I do know that the Navy is looking at this. They are 
looking at it in terms of the size configurations and how it 
could possibly be placed on different platforms.
    Mr. Brooks. And this is a question for any of you. How much 
does America spend on Ground-based Midcourse Defense?
    Admiral Syring. We have spent--and, Mr. Chairman, if I can 
just check this for the record--$24 billion to date, $30 
billion by 2019.
    [The information referred to can be found in the Appendix 
on page 101.]
    Mr. Brooks. How about in the last fiscal year how much was 
spent? Do you know offhand?
    Admiral Syring. In fiscal year 2014 it was roughly a 
billion dollars. With all of the homeland defense improvements 
in this year budget we are at $1.3 billion.
    Mr. Brooks. The reason I mention that is that there was 
some discourse about BRAC [Base Closure and Realignment]. And 
certainly, to the extent BRAC can be more efficient, that is 
something Congress ought to consider. But at the same time, it 
seems like that is a drop in the bucket when you look at $750 
billion a year that this government is spending on means-tested 
welfare or wealth transfer programs.
    And I would submit that is a place that perhaps we need to 
be looking at in order to help prevent the degradation of our 
national security capabilities. Or perhaps look at the $40 
billion to $50 billion a year we spend giving away to foreign 
entities money, again, that we have to borrow that we can't pay 
back to give it away. And so as we are looking at BRAC, I would 
hope that the members of this committee and the Members of 
Congress generally would also look at all these much more 
glaring expenses that, at least to me, are a lesser priority 
than funding our national security.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. And I am impressed, 
Admiral Syring, that you remember those numbers, those spending 
numbers. That was pretty good.
    I only have one question left, and that is for Ms. Bunn. As 
you know, this committee, in its report to accompany the fiscal 
year 2014 NDAA [National Defense Authorization Act] directed 
DOD and the Department of State to provide the full report on 
its dealings with Russia on the U.S. missile defenses. We have 
a responsibility to our constituents to understand what has 
been proposed. Especially when we understand, as was just 
confirmed, that the Obama appointees had sought to provide 
Russia classified information on our missile defenses.
    I understand that the Department of Defense is offering to 
brief us, and that may be sufficient. But I see nothing about 
the State Department responding. Why is that?
    Ms. Bunn. Congressman, when--in December, when the Under 
Secretary for Policy came to brief Chairman McKeon and others, 
there was a State Department representative with him. He 
briefed them on the MDA presentations that had been used with 
Russia. We have now compiled others. As you know, you have 
gotten a recent letter saying perfectly willing to come and 
brief on those, as well.
    I suspect that State will be with us. And otherwise, you 
would have to ask the State Department.
    Mr. Rogers. Okay, thank you.
    The chair now recognizes the ranking member for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I would be happy to 
yield to my friend from Texas, who has been here waiting at the 
hearing for some time, if Mr. Veasey would like to use my time.
    Mr. Veasey. Is this the appropriate time to ask about the 
missile defense? That is what I wanted to talk about. Okay, 
yes.
    I wanted to ask you about requests for missile defense 
funding. How did that fare in the fiscal year 2015 budget 
request?
    Admiral Syring. We were successful in the Department 
requesting 7--just under $7.5 billion.
    Mr. Veasey. Okay. Were your requests prioritized?
    Admiral Syring. Yes, sir.
    Mr. Veasey. They were. Okay.
    Admiral Syring. And I would just add, very strongly 
supported by the Department.
    Mr. Veasey. Okay, good. Good. Do we--and I wanted to also 
ask--and I think that either one of you can answer this 
particular question about the left-of-launch. And I wanted to 
know, do we have sufficient intelligence to inform left-of-
launch options?
    General Mann. I think that is an area that I think all the 
combatant commanders would agree is an area that we need to 
continue to improve our capabilities for left-of-launch. You 
know, obviously this is a policy issue. But in terms of the ISR 
[intelligence, surveillance, and reconnaissance], improving our 
ISR abilities to be able to see where threat systems are at or 
located on the battlefield, I would say this is an area, 
obviously, that we can always do better.
    Admiral Syring. I can just add, I think you heard, for the 
record, from General Jacoby that he would--that that is at the 
top of his priority list is increased indications and warning 
capability.
    Ms. Bunn. And I would add that we need a mix of 
capabilities to deal with adversary ballistic missiles. Part of 
that has to do with missile defense, and part of that has to do 
with other capabilities for strike. And the intelligence 
ability, the ability to find and fix those, is one that we--is 
very important.
    Mr. Veasey. Thank you.
    Mr. Rogers. The gentleman from Arizona, Mr. Franks, is 
recognized.
    Mr. Franks. Well, thank you, Mr. Chairman. It has been an 
interesting discussion here. And Admiral Syring, I assure you 
the last thing I want to do is to keep hammering on you or put 
you in an awkward position in any way. But we have, I think, 
what is it, about 30-plus Aegis-capable ships and a test site 
in Hawaii. And we have Ashore sites coming online in Romania 
and Poland, I think it is. They are on time in 2015-2018, both 
of those?
    Admiral Syring. Correct, sir.
    Mr. Franks. And with all of these avenues to defend from, 
the fact remains that we have cut more than 90 SM-3 IBs out of 
the FYDP [Future Years Defense Program], and more than 20 in 
this year's budget alone. And I--you know, I want you to know I 
understand that this is a challenge that has been forced upon 
you. But in the ways that you--in the way that you feel that 
you can, can you give us any guidance to this committee as to 
why these cuts should take place?
    And can we work together to try to maybe right this ship if 
we are under--giving less rounds than we may need, at some 
point, to justify--not only justify, but to populate these new 
avenues of these sites that are coming online?
    Admiral Syring. Thank you, Mr. Franks. As you know--and I 
will talk to the total quantity here in just a second--as you 
know, we also requested advanced procurement in this year's 
budget, which will set the stage for the multiyear procurement 
request in 2016 through 2019. And the goal--negotiation goal, 
objective--is to get as close to 52 per year through the 
multiyear procurement savings, which have to be at least 10 
percent, and we are hoping to be more like 15 to 20 percent to 
get the quantities back up towards 52.
    And, sir, it was a balance of risk this year. And I 
explained this; we were late to award the 13 quantity, we just 
awarded the 14 quantity. The 15 quantity will be added on. If 
you look at those three together it is 115 missiles in a period 
of 15 months. And given the other priorities in the budget, 
sir, that was a choice that was made to get the homeland 
defense initiative started.
    Mr. Franks. I don't question your choice at all. It does 
underscore the need to try to head off the sequester in 2016. 
Let me--let my final question be to all of you here. Just one 
general comment. What do you believe you need most from us now? 
What is the most important thing that we can do to empower you 
to do the jobs that you are so capably already doing?
    General Mann. Address sequestration. Obviously, 
predictability in terms of funding. And as Admiral Syring has 
articulated, as far as priority the best use of taxpayer 
dollars, I would say the support for long-range discrimination 
as well as to maintain confidence in our GBIs that we have up 
there, as well as leap-ahead technologies.
    Mr. Franks. That is a really good answer. Okay.
    Admiral Syring. I am comforted by your support, by the 
committee's support, with our sensoring and discrimination 
effort that needed to get started to make the best use of the 
interceptors we have, sir, as we have discussed. And I just ask 
for that continued support. The second part is advanced 
technology and support to continue to accelerate those efforts, 
some of which we can't talk about here.
    But I agree with you entirely in terms of we can't just 
keep building bigger and bigger missiles. At some point we have 
got to bring that technology along. And it has got to be 
disruptive.
    Mr. Franks. Ms. Bunn.
    Ms. Bunn. Instead of talking to hear myself talk, 
Congressman, I will just say amen and amen.
    Mr. Franks. That is a good answer.
    Thank you.
    Mr. Rogers. Thank you.
    The chair now recognizes Mr. Langevin for any questions he 
may have.
    Mr. Langevin. Thank you, Mr. Chairman. And I want to thank 
our panel for being here today. And I apologize I was not here 
earlier. That is the downside of this job, you have to be in 
five places at the same time all at the same time. But thank 
you for your testimony. And I know that was a pretty robust 
discussion on directed energy so I won't delve back into that 
area.
    But I would like to ask a question with respect to 
acquisitions and procurement. So in May 2013 GAO had concluded 
that despite some progress, and I quote: ``MDA has undertaken 
and continues to undertake highly concurrent acquisitions. 
While some concurrency is understandable, committing to product 
development before requirements are understood and technologies 
are mature, or committing to production and fielding for 
development is complete, is a high-risk strategy that often 
results in performance shortfalls, unexpected cost increases, 
schedule delays and test problems. It can also create pressure 
to keep producing to avoid work stoppages,'' end quote.
    So previous EKV development and deployment have been 
rushed, with deployment preceding operationally realistic 
testing. How will MDA reduce acquisition risk for the 
development of the new common kill vehicle [CKV]?
    Admiral Syring. First, Congressman, good to see you, sir. 
We agree with the GAO's assertion on concurrency. And we have 
taken action to rectify that within the Missile Defense Agency, 
where every program today is required to address concurrency in 
the execution briefs that I receive quarterly. In terms of what 
areas of concurrency do you have, how are you managing them, 
what risks do you have and what are you going to do to decouple 
efforts, if required.
    You can't ever manage in a zero concurrent nature in a 
program that is unaffordable and will never deliver. It is a 
matter of managing that concurrency and understanding it. 
Specifically to your question on the EKV-CKV, I can assure 
you--I have told people this--we have one chance to get it 
right. And circumventing the system engineering, design cycle, 
prototype testing, and qualification will not happen. There is 
a very rigorous process that is followed for properly 
engineered missile systems.
    I have got a lot of experience with the Aegis development 
and the Standard Missile, in particular, that history of 
following that process. And I assure you that it will be 
followed in the EKV development.
    Mr. Langevin. Thank you, Admiral, I appreciate those 
assurances. I know the committee's going to want to continue to 
follow this closely. So thank you for your work in that.
    I will ask one question, I think, that hasn't been asked on 
directed energy in this respect to requiring collaboration with 
partners. Are there opportunities for collaboration with 
partner nations in directed-energy research? And if so, can you 
outline what those are, both current and future?
    Admiral Syring. Currently, none. There are opportunities 
which, as we flush those out over the next few months to a 
year, we will get back to you on. But there are several 
opportunities abroad that we are thinking through.
    Mr. Langevin. Okay, very good. Thank you all for the work 
you are doing. I am going to stop there. I will yield back the 
balance of my time, and I appreciate you all being here today.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes the gentleman from Huntsville, 
Alabama, Mr. Brooks, for any additional questions he may have.
    Mr. Brooks. Thank you, Mr. Chairman.
    Ms. Bunn, do you know why Dr. Miller, the previous Under 
Secretary of Defense for Policy, sought approval to release 
MDA's velocity at burnout information to Russia?
    Ms. Bunn. Sir, what Dr. Miller asked for was an assessment 
of the risk of doing so. They provided that--MDA provided that 
analysis, and it was not released.
    Mr. Brooks. Why did he seek that assessment?
    Ms. Bunn. It was part of the efforts that have gone for 
several administrations to convince the Russians that our 
missile defense capabilities in Europe don't pose a threat to 
their strategic deterrent. The talks, where we keep saying we 
are not going to accept limits, the Russians keep seeking 
limits. We were looking for other ways to address this without 
seeking limits. So that was the reason.
    Mr. Brooks. Do you support such a release of MDA's velocity 
at burnout information to Russia or any other potential foe of 
the United States of America?
    Ms. Bunn. Given the risk assessment that MDA did, I would 
not.
    Mr. Brooks. And Admiral Syring, did you approve a release 
of the velocity at burnout data at any point in time?
    Admiral Syring. No, sir.
    Mr. Brooks. And was that a part of the assessment that Ms. 
Bunn has just finished testifying to?
    Admiral Syring. Yes, sir.
    Mr. Brooks. And why would a foe of the United States of 
America find that velocity at burnout information of value?
    Admiral Syring. Let me try to answer that unclassified. And 
if I need to go classified, I would ask that I come see you 
about that. It gets to methods and means of employment that 
could be derived from such equations.
    Mr. Brooks. And this would be a question for any of the 
three of you that wish to answer. Do you have a judgment as to 
whether the release of velocity at burnout information, in any 
way, shape or form, has the potential to undermine America's 
national security capabilities, in particular with respect to 
missile defense?
    Admiral Syring. In my view, yes, and the uncertainty of 
where that information would go. And, my firm recommendation 
not to release it.
    Mr. Brooks. General Mann, do you have an opinion?
    General Mann. I agree.
    Mr. Brooks. And Ms. Bunn?
    Ms. Bunn. As I said, given the risk assessment that MDA 
produced, I would not favor releasing that.
    Mr. Brooks. All right, thank you.
    Ms. Bunn. Same----
    Mr. Brooks. Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from California, Mr. 
Garamendi, for a second round of questions if he has any.
    Mr. Garamendi. Thank you, Mr. Chairman.
    You are going to be doing another test firing, Admiral. If 
it doesn't work, what is plan B?
    Admiral Syring. If it doesn't work, it could fail for many 
different reasons. And we will go through that as we do with 
every failure. An analysis of what failed and why it failed.
    Mr. Garamendi. So plan B is to continue to pursue the 
current technology.
    Admiral Syring. The success or failure of this test this 
summer, as I have talked to you, sir, about is in no way going 
to change my decision or recommendation to pursue the 
redesigned EKV.
    Mr. Garamendi. Okay. There was a question raised earlier 
about this new missile defense site somewhere on the East 
Coast. And I thought I heard one, or maybe two of you--Ms. Bunn 
and maybe Admiral--or General, I am not sure which of the three 
of you, say that the current array of missiles provide adequate 
protection from the present and known threats from Iran and 
North Korea. Is that correct?
    General Mann. Yes, Congressman. It does provide a limited 
defense against threats emanating from North Korea and Iran.
    Mr. Garamendi. Now you used a qualifying word there, so 
let's go at that word ``limited.'' What do you mean by that?
    General Mann. Excuse me. Given their current capability, it 
does provide the protection. But we all know that these 
countries are continuing to increase their arsenal and their 
technology. And down the road, they might reach a point in 
terms of numbers, just the numbers of missiles that they could 
employ that it could overwhelm the system.
    Mr. Garamendi. Okay.
    General Mann. Down the road.
    Mr. Garamendi. So now the solution there might be to 
increase the number of missiles in Vandenberg and Alaska? Or to 
have a new missile defense site?
    General Mann. Or it could be to also continue to increase 
the reliability and the effectiveness of the current fleet, 
too. And that would also have an operational employment aspect 
to it. And that is the reason why we support the Missile 
Defense Agency's current approach in terms of increasing the 
effectiveness and the efficiency of the current systems, as 
well as looking ahead.
    Mr. Garamendi. So there are multiple ways of going at this 
problem of increased capability by Iran and North Korea and, I 
suppose, somebody else out there that might come along. And 
that might be to make a better kill system. One that is more 
accurate, more agile. And increase the number of missiles at 
the present site. It seems to me the system that you have set 
up--correct me if I am wrong, now--is one in which you want to 
first make sure you know what is going on.
    And this is the increased capacity of the radar systems. 
That that is the high priority. Get that done so you know what 
is coming in. Secondly, develop a missile that actually will 
work, that has multiple capabilities. And then make a decision 
about adding to the existing number of missiles and, possibly, 
an additional missile site. Is that the track you are on?
    General Mann. I would add to that, Congressman. I would add 
to that. I think also it gets back to--and I think some of 
the--I think General Jacoby also highlighted the importance of 
making sure, in terms of indications and warning, that we 
continue to work on our ability to locate threat systems. I 
think that is really the first step. To make sure that, number 
one, we are able to identify those threat platforms that are 
out there.
    And, in addition to increasing our sensor, our ability to 
discriminate, to be able to find the target within a threat 
complex. And then to be able to utilize the GBIs now, and in 
the future, in the most efficient means possible.
    Mr. Garamendi. And that is the track that is in the current 
budget.
    Admiral Syring. Yes, sir.
    Mr. Garamendi. With the exception of directed energy.
    Admiral Syring. There are aspects of directed energy that 
we need to spend some time with in a classified forum so I can 
complete--give you the complete picture.
    Mr. Garamendi. I will yield back my time. Thank you.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the ranking member for any 
questions he may have.
    Mr. Cooper. I thank the chair. I just wanted to thank the 
witnesses not only for their testimony, but for their hard work 
every day in defending America. I think the most important 
single word that was uttered in this hearing was uttered by 
General Mann in response to, I think, Mr. Franks' question of 
what we could do to help you do your work better.
    And basically, you said sequestration. Get rid of 
sequestration. So I hope the committee heard that testimony, 
and I hope this committee will act to eliminate sequestration.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Any other questions from any members? Okay, I hear none. 
And I completely echo the ranking member's statement. I have 
made it clear to the chairman of the full committee and to our 
House leadership that it is my number one priority to see 
sequestration, defense sequestration in particular, rolled back 
and eliminated. I think it is going to do great damage to this 
country. So, hopefully, we will be successful. But I can assure 
you it is a top priority of mine over the next year so--while 
we navigate these waters.
    But thank you all again for your time and your expertise 
and your service to our country. And with that, we are 
adjourned.
    [Whereupon, at 4:51 p.m., the subcommittee was adjourned.]


 
                            A P P E N D I X

                             March 25, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 25, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 25, 2014

=======================================================================

               RESPONSE TO QUESTION SUBMITTED BY MR. BROOKS

    Admiral Syring. In fiscal year (FY) 2015, the Department of Defense 
is requesting $1.003 billion (B) for Ground-based Midcourse Defense 
(GMD) Research, Development, Test and Evaluation activities, and $146 
million for GMD operations and maintenance for a total of $1.149B in FY 
2015. Over the Future Years Defense Program, when GMD procurement, the 
Sea-based X-Band Band Radar, and the planned procurement of the long-
range discrimination radar are included the total budget from FY2015 to 
2019 is $7.048B.   [See page 19.]



=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2014

=======================================================================



                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Have you been briefed on Russia's missile defense 
capabilities? Do you believe Russia intends for them be used against 
U.S. missiles?
    General Mann. I am familiar with intelligence assessments of 
Russia's missile defense capabilities. Russia's missile defense 
capabilities consist of both fixed and mobile systems. Current fixed 
ballistic missile defense systems are designed to counter an 
intercontinental ballistic missile force and would be employed to 
defend major population centers around Moscow. Russia also maintains a 
mobile ballistic missile force designed to defend against shorter range 
tactical ballistic missile systems.
    Just as ballistic missile defense is an integral part of U.S. 
military strategy, I believe that Russia maintains ballistic missile 
defensive capabilities for similar reasons. When under the threat of a 
ballistic missile attack by any nation, including the United States, 
Russia must be expected to employ its defensive capabilities to protect 
its interests.
    Mr. Rogers. What would you worry about if Turkey acquired a Chinese 
missile defense system? Why would you not want that system to be 
connected or networked with U.S. systems? What if the system was 
established as an ``indigenous'' system, but clearly was comprised of 
Chinese technology and systems?
    General Mann. The Department is committed to the deployment of 
Ballistic Missile Defense System assets that enhance missile defense 
capabilities within the European region and the NATO missile defense 
initiative. If Turkey acquires a Chinese missile defense system, my 
concern is its impact to our coalition operations and the compatibility 
between our forces. Efforts continue to ensure future interoperability 
of U.S. contributions to the NATO capability. However, it is the 
Department's position that the Chinese missile defense system cannot be 
interoperable with NATO due to the potential risks and vulnerabilities 
associated with either the Ballistic Missile Defense System or the NATO 
missile defense initiative.
    Mr. Rogers. The National Missile Defense Policy Act of 1999 
requires that we deploy national missile defenses capable of defending 
the United States from ``accidental or unauthorized'' ballistic missile 
attack, among other attacks. Can you please tell me, are we protected 
from an accidental or unauthorized ballistic missile attack from a 
Chinese ballistic missile submarine, which, as you know, the Chinese 
are now deploying? If not, when will we?
    General Mann. It is difficult to provide a specific assessment. The 
Ballistic Missile Defense System is not designed to counter peer or 
near-peer ballistic missile threats. The level of residual capability 
to defend against such an incident would be influenced by the degree of 
indications and warnings, the location of the launch and target impact 
area, and the accessibility of sensors and interceptors. Upon request, 
further details could be provided via a classified session or paper.
    Mr. Rogers. Please switch hats to your hat as Commander of Army 
Space and Missile Defense Command. Why is the Conventional Prompt 
Global Strike capability important?
    I understand the Navy is evaluating the basing of such a capability 
on submarines. Do you support such studies? How would SMDC remain 
involved during such consideration?
    General Mann. An operational Conventional Prompt Global Strike 
(CPGS) system would provide the National Command Authority a 
conventional munitions capability to address strategic and time 
sensitive targets in areas without forward deployed forces. I support 
OSD's continued effort to develop and field a CPGS capability. Per 
OSD's direction and guidance, I anticipate that USASMDC/ARSTRAT will 
continue to support technology development as the CPGS capability 
matures.
    Mr. Rogers. Two administrations, including the current one, 
supported forward-deployed missile defense sites in Poland to provide 
added and needed protection of the homeland. Those homeland defense 
deployments have now been cancelled. Have we replaced them in any way?
    What could an East Coast missile defense site provide you to defend 
the United States?
    Why is it important to continue planning for such a deployment?
    General Mann, as the warfighter, do you have an opinion?
    General Mann. As outlined by the Secretary of Defense in March 
2013, steps were taken to bolster homeland defense. The Department is 
increasing capacity and capability to its homeland defense architecture 
with the programmed increase of 14 additional Ground-based Interceptors 
as well as the development of advanced kill vehicle technology. These 
initiatives and Missile Defense Agency's design and development of a 
Long Range Discrimination Radar will serve to provide an enhanced level 
of protection against a limited ballistic missile defense attack.
    While a decision to deploy a third interceptor site on the U.S. 
East Coast has not been made, an operational site would disperse 
inventory and increase both ground based interceptor capacity and 
battlespace, e.g., provide more decision time. While a third site does 
provide enhanced homeland defense capabilities, it is not the top 
operational priority. Improving our sensor capabilities, to include 
persistent discrimination and enhanced tracking of threat missiles, as 
well as improving the ground based interceptor reliability are higher 
ranking Warfighter priorities.
    In my opinion, it is prudent for the Missile Defense Agency to 
complete the environmental impact statements at the four potential U.S. 
interceptor sites, which will reduce the operational timeline in the 
event the Nation decides to field a third site.
    Mr. Rogers. Are you developing missile defenses to defend the Navy, 
in particular our carrier battle groups, from China's ``carrier 
killer'' ballistic missile (known as the DF-21D)?
    Admiral Syring. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. It appears the fiscal year 2014 budget request cuts 
your directed energy budget to approximately $13 million. Can you tell 
me, is this a sufficient budget request in your opinion? Does this 
budget request match the potential for directed energy to be a game-
changing missile defense technology? How much of this program's budget 
request is focused on missile kill or intercept?
    Admiral Syring. All of MDA's budget request for directed energy is 
focused on missile kill or intercept. MDA fully supports the PB15 
President's Budget request for Directed Energy. Funding at the 
requested level is sufficient and matches the potential for directed 
energy to be a game-changing missile defense technology by supporting 
the key demonstrations for two promising directed energy technologies, 
Diode Pumped Alkali Lasers at LLNL and Fiber Combining Lasers at MIT/
LL.
    We will base our PB16 budget submission on data and progress of 
these two demonstration programs. Both laboratories achieved record 
high output powers (20 kW for MIT/LL and 4 kW for LLNL) for their 
respective technologies this past year. Each program is now progressing 
towards higher power demonstrations to satisfy MDA's knowledge point 
objectives. We are canvassing industry for both near-term and far-term 
directed energy solutions. We are requesting industry proposals under 
MDA's Advanced Technology Initiatives Broad Agency Announcement for an 
airborne demonstration of a multi-kilowatt-class laser. The near-term 
demonstration will reduce risk for a full scale system capable of 
killing a missile. Additionally, there are multiple uses for this 
technology at lower power levels.
    Mr. Rogers. Have you been briefed on Russia's missile defense 
capabilities? Do you believe Russia intends for them be used against 
U.S. missiles?
    Admiral Syring. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. You stated at the hearing that the question of the 
advisability of the release to Russia of velocity-at-burnout data 
``gets to methods and means of employment that could be derived from 
such equations.'' Please elaborate, including by classified response if 
necessary.
    Admiral Syring. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. I support the additional funding in the GMD program 
that you've requested for a new redesigned kill vehicle and new 
investments in discrimination. Absent those investments, however, the 
GMD system is actually being cut in your fiscal year 2015 budget. Why? 
In other words, this budget is requiring GMD to do much more but 
without an adequate topline increase.
    Admiral Syring. Excluding discrimination improvements for Homeland 
Defense and redesigned Exoatmospheric Kill Vehicle, the GMD ``program 
specific'' FY 2015 funding was reduced from President's Budget (PB) 
2014 to PB 2015 to provide funding for additional Homeland Defense 
discrimination capabilities and long-range radar capabilities funded in 
other Agency program elements which will enhance the capability of the 
GMD system.
    Mr. Rogers. Are we making sufficient investments to pay for life-
cycle maintenance and aging and reliability for this 10-year-old 
system, which, as you know, was deployed with a 20-year design life?
    Admiral Syring. The FY 2015 budget request supports sustainment of 
the GMD program. The Missile Defense Agency (MDA) acknowledges the need 
to look into all aspects of the GMD program to include life-cycle 
maintenance, aging and reliability and is prioritizing requirements and 
funding within available resources during the FY 2016 budget 
development process.
    Mr. Rogers. What investments do we need to make?
    Admiral Syring. [The information referred to is for official use 
only, and is retained in the committee files.]
    Mr. Rogers. The missile defense budget request includes $175 
million to conclude the Iron Dome agreement with Israel. I also 
understand the Israelis are requesting a $176 million plus-up for Iron 
Dome for fiscal year 2015. Do you support this plus-up?
    Admiral Syring. The Missile Defense Agency (MDA) supports the 
President's fiscal year 2015 budget request of $176 million. We believe 
the Israeli request for additional funds is premature.
    Since contracts for the production and U.S. co-production for Iron 
Dome are awarded by Israel, MDA has no privity of contract associated 
with U.S. co-production of Iron Dome components. However, MDA is aware 
that no co-production contracts between U.S. and Israeli industry have 
been awarded. Therefore, there is nothing to substantiate the Israeli 
claim of a higher U.S. industry production cost and higher non-
recurring engineering costs.
    U.S. and Israeli industry are finalizing a teaming agreement 
covering co-production of Iron Dome components. MDA understands that 
this agreement will contain language that indicates U.S. industry costs 
will not exceed Israeli industry costs by five percent on any 
component; otherwise procurement of that component would revert to 
Israeli industry. U.S. industry believes that it can demonstrate the 
ability to meet cost targets for nearly all Iron Dome components once 
contracts are awarded.
    Finally, the Israeli assertion that the U.S.-Israeli currency 
exchange rate necessitates additional funding is counter to the 
Department of Defense Financial Management Regulation. It is not 
feasible to continually adjust international agreements based on a 
fluctuating currency exchange rate.
    Mr. Rogers. What would you worry about if Turkey acquired a Chinese 
missile defense system? Why would you not want that system to be 
connected or networked with U.S. systems? What if the system was 
established as an ``indigenous'' system, but clearly was comprised of 
Chinese technology and systems?
    Admiral Syring. The possibility of Turkey acquiring a Chinese made 
missile defense system is a concern. In our opinion, without full 
technical insight, NATO will not likely allow the Chinese system to be 
connected to the NATO BMD system due to concerns about cyber-related 
issues that stem from the possibility of a Chinese system connecting to 
a NATO system.
    Even if the Turks acquire an ``indigenous'' system that is clearly 
comprised of Chinese technology and systems, without full technical 
insight, we believe that it will still not likely meet the strict 
standards that are required to be connected to the NATO system.
    Mr. Rogers. The budget proposal for Fiscal Year 2015 includes a 
proposal that MDA assume responsibility as the technical authority for 
Integrated Air and Missile Defense programs. Can you please describe 
how this will occur and why it was necessary, from your perspective?
    Can you please, with this technical authority, provide your views 
on the utility of the Air Force's 3DELRR system and whether other 
planned service systems can perform this mission?
    Admiral Syring. On October 1, 2013, the Missile Defense Agency 
(MDA) was assigned responsibility as the single technical authority for 
integrated air and missile defense (IAMD). We will leverage the MDA 
system engineering process as described in BMDS Systems Engineering 
Plan. We will lead and manage engineering activities in collaboration 
with the Services in a Joint Systems Engineering Team chaired by MDA. 
This team will provide recommended technical requirements for inclusion 
in the IAMD technical baseline which includes related specifications 
and interface control documentation. The Services will continue to 
maintain configuration control over their Service-specific baselines 
and will ensure that those baselines reflect requirements defined by 
the IAMD technical authority.
    The Department of Defense has been developing air and missile 
defense capabilities for more than two decades; however, the 
development of a joint force that can operate in an integrated and 
interoperable manner has not been realized due to the challenges 
associated with the integration. A single authority for the development 
of technical requirements and coordinated development of air and 
missile defense solutions will enhance the DOD's ability to integrate 
across the Military Departments.
    The Air Force's 3DELRR system provides surveillance capability that 
can contribute to the future air picture and track air breathing 
targets. MDA's focus to date has been on assessing options for 
integrating sensors across the Services by using Service descriptions 
and data for each of the sensors.
    Mr. Rogers. Can you please describe the planning and evaluation 
that is underway to consider whether any of the 14 GBIs that will be 
procured starting next year will be two-stage GBIs?
    Admiral Syring. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. Your predecessor, General O'Reilly, testified in 2009 
that MDA was going to deploy 30 GBIs and it was going to continue the 
production of 14 GBIs on contract to maintain the ability to produce 
additional GBIs for testing, refurbishment, future upgrades, etc. We 
support the Department's decision to now deploy those 14 GBIs in 
response to the North Korean threat, but what about testing, 
refurbishment, and future upgrades of the currently deployed systems? 
Is that funded in the FY15 budget request?
    Admiral Syring. Yes, the President's Budget 2015 request funds 
testing, refurbishment, and future upgrades of the Ground-Based 
Interceptors (GBIs). The budget request funds GBI component testing and 
refurbishing currently deployed GBIs to test and improve their 
reliability including specific upgrades to the fleet to correct issues 
identified with the FTG-06a flight test failure. It also funds a total 
of six GBI intercept flight tests from fiscal years (FY) 2015-2019, 
maintaining a test cadence of at least one flight test per year of the 
Ground-Based Midcourse Defense system.
    We have also requested $99.5 million in FY 2015 to redesign and 
improve the GBI exoatmospheric kill vehicle (EKV). The redesigned EKV 
will be built with a modular, open architecture and designed with 
common interfaces and standards, making upgrades easier and broadening 
our vendor and supplier base. The new EKVs will improve reliability and 
be more producible, testable, reliable, and cost-effective and 
eventually will replace the kill vehicle on our current GBI fleet. We 
are currently assessing concepts, acquisition options, and timelines to 
test and field the redesigned EKV. Our goal is to begin flight testing 
the redesigned EKV in FY 2018.
    Mr. Rogers. Can you please shed light on whether MDA is still 
considering multi-year procurement or other efficient procurement 
processes and authorities for procuring these GBIs? How much money 
could be saved from such procurement approaches?
    Admiral Syring. Given the status of the GBI flight test program, I 
believe multi-year procurement authority is premature at this time. The 
Missile Defense Agency's (MDA) President's Budget 2015 request includes 
$150 million beginning in fiscal year (FY) 2016 for the procurement of 
Ground Based Interceptors (GBI). We are evaluating various procurement 
approaches that could potentially result in substantial savings over 
the Future Year's Defense Program; however, it is too early for us to 
identify potential cost savings.
    Mr. Rogers. The National Missile Defense Policy Act of 1999 
requires that we deploy national missile defenses capable of defending 
the United States from ``accidental or unauthorized'' ballistic missile 
attack, among other attacks. Can you please tell me, are we protected 
from an accidental or unauthorized ballistic missile attack from a 
Chinese ballistic missile submarine, which, as you know, the Chinese 
are now deploying? If not, when will we?
    Admiral Syring. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. I am concerned by Russia's behavior threatening our 
allies, including the illegal invasion of Ukraine and its violation of 
the INF treaty. Are you?
    Admiral Syring, can you tell me, what is the organic capability of 
Aegis Ashore to detect cruise missiles? What would the capability be if 
we deployed SM-2s and SM-6s at those sites in addition to SM-3s?
    Admiral Syring, you stated at the hearing that the Aegis Ashore 
system is not currently configured for cruise missile defense and that 
the functional difference is, ``essentially, the software, with a minor 
hardware addition.'' Please provide the following:
        1. A detailed explanation of those software and hardware 
        additions and costs and schedules to make those changes if 
        directed to do so.
        2. Coverage charts showing cruise missile defense of Europe 
        from Aegis Ashore sites so configured.
        3. Coverage charts showing that coverage along with coverage 
        Aegis BMD ships at projected operating areas in Europe.
        4. Coverage charts showing cruise missile defense coverage from 
        Aegis BMD ships deployed in Asia at their normal operating 
        areas.
    Admiral Syring. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Rogers. This is a painfully tight budget environment and I 
appreciate you've done the best you could with what you were given. Can 
you please tell me, if you had an extra dollar, would you look at the 
deployment of an East Coast radar to aid in the defense of the homeland 
from the Iranian ballistic missile threat?
    What investments will be required to use Cobra Judy to add to the 
missile defense sensor coverage of the United States along the East 
Coast?
    Same question but to SBX.
    Admiral Syring. The deployment of an East Coast radar would provide 
for a more robust defensive capability. The specific benefits of a 
large X-band radar located on the East Coast are attached. The benefits 
are based on analysis presented in a 2012 briefing to the House Armed 
Services Committee. Because of threat developments and the results of 
ongoing studies, an East Coast radar may be part of our future sensor 
architecture requirements.
    The Missile Defense Agency is updating the 2012 analysis for a new 
report required by Section 235 of the National Defense Authorization 
Act for Fiscal Year 2014. The new report will address sensor 
capabilities, including relocatable land- and sea-based capabilities. 
We will provide an updated response upon completion of the report. 
Cobra Judy is no longer available for integration into the Ballistic 
Missile Defense System. The Navy removed the vessel from service and it 
is being sold for scrap. The costs for relocating the Sea Based X-band 
radar (SBX) to the East Coast follows:
    <bullet>  Assume SBX returns to full operation (i.e., no longer in 
Limited test support status)
    <bullet>  Include $17.1 million (M) in fiscal year (FY) 2015 to 
move SBX by heavy transport vessel
    <bullet>  Include an off-shore support vessel ($30M/year). Resupply 
would be conducted from the nearest port

                                  Full Operations Atlantic (Base Year 2014 $M)
----------------------------------------------------------------------------------------------------------------
    FY 2015          FY 2016          FY 2017         FY 2018         FY 2019         FY 2020          Total
----------------------------------------------------------------------------------------------------------------
135.7            141.7            146.9           125.8           112.6           135.1           797.8
----------------------------------------------------------------------------------------------------------------


    Mr. Rogers. Two administrations, including the current one, 
supported forward-deployed missile defense sites in Poland to provide 
added and needed protection of the homeland. Those homeland defense 
deployments have now been cancelled. Have we replaced them in any way?
    What could an East Coast missile defense site provide you to defend 
the United States?
    Why is it important to continue planning for such a deployment?
    Admiral Syring. Yes. On March 15, 2013 the Secretary of Defense 
announced a series of steps the United States is taking to stay ahead 
of the challenge posed by Iran and North Korea's development of longer-
range ballistic missile capabilities. Specifically, the Secretary 
committed to shifting resources from the terminated SM-3 IIB program to 
fund the deployment of 14 additional GBIs as well as the development of 
advanced kill vehicle technology to improve the performance of future 
GBIs. These steps enable added protection against missiles from Iran 
while also providing additional protection against the North Korean 
threat.
    There has been no decision made to pursue a potential future 
Continental United States (CONUS) interceptor site (CIS). However, such 
a site would provide increased battlespace and capacity but it would 
come with significant materiel and service support costs.
    The Department is preparing a CIS contingency plan and conducting 
an Environmental Impact Statement in accordance with section 227 of the 
Fiscal Year 2013 National Defense Authorization Act. Preparation of an 
EIS and contingency plan would reduce the time required to field a CIS, 
should a decision be made to do so.
    Mr. Rogers. From a policy perspective, can you please help me 
understand why we deploy missile defenses to protect our aircraft 
carriers from Chinese ballistic missiles but we do not deploy missile 
defenses to protect our cities from Chinese nuclear missiles?
    Ms. Bunn. We have the capability to protect our aircraft carriers 
from ballistic missiles in order to ensure freedom of action and the 
ability to project power around the globe to protect U.S. interests.
    The DOD is committed to ensuring defense of the U.S. homeland 
against limited long-range missile attacks from countries such as North 
Korea and Iran. With regard to China and Russia, our homeland missile 
defenses are not designed to counter their advanced long-range missile 
capabilities because defending against the quantity and quality of 
their ICBMs would be technologically impractical and cost prohibitive. 
We remain confident that Chinese and Russian ballistic missile attacks 
on the U.S. homeland are deterred by other means. Despite not being 
capable of coping with large-scale Chinese or Russian missile attacks, 
the Ground-based Midcourse Defense (GMD) system would be employed to 
defend the United States against limited missile launches from any 
source.
    Mr. Rogers. Why does Russia deploy missile defense? Why does it 
have a nuclear-armed missile defense? Have you been briefed on Russia's 
missile defense modernization plans? Does Russia design its missile 
defense systems with U.S. nuclear forces in mind? Is Russia deterred 
from building more advanced missile defenses out of a concern for 
upsetting the ``strategic balance'' between the U.S. and Russia?
    Ms. Bunn. Russia has long deployed missile defenses around Moscow; 
we presume it is to protect Russian leadership from U.S. 
intercontinental ballistic missiles. My understanding is that Russians 
view the Russian system as not upsetting the strategic balance because 
it complies with the terms of the Anti-Ballistic Missile Treaty, even 
after the United States withdrew from the Treaty.
    Mr. Rogers. Is it important Poland buy an interoperable NATO system 
as it considers such a procurement for its air and missile defense 
tender? Do you agree that the procurement of U.S. systems offer Poland 
an opportunity to obtain state-of-the-art technology and to strengthen 
bilateral relations?
    Ms. Bunn. It is important that the missile defense system Poland 
procures be interoperable with the NATO ballistic missile defense 
system.
    While we would naturally prefer that Poland procure a U.S. system, 
the United States recognizes Poland's right to purchase whatever 
missile defense system it chooses to purchase. If they choose to 
procure a U.S. system, doing so would provide Poland the best state-of-
the art missile defense capability, would strengthen our bilateral 
relationship, and would ease integration with U.S. national systems and 
the NATO BMD architecture.
    Mr. Rogers. What would you worry about if Turkey acquired a Chinese 
missile defense system? Why would you not want that system to be 
connected or networked with U.S. systems? What if the system was 
established as an ``indigenous'' system, but clearly was comprised of 
Chinese technology and systems?
    Ms. Bunn. The possibility of Turkey acquiring a Chinese-made 
missile defense system is a concern. Without full technical insight, 
NATO will not likely allow the Chinese system to be connected to the 
NATO ballistic missile defense system due to cyber-related concerns.
    Even if Turkey acquires an ``indigenous'' system that is largely 
composed of Chinese technology and systems, without full technical 
insight, we believe that it would still not likely meet the strict 
standards that must be met before any missile defense system could be 
connected to the NATO system.
    Mr. Rogers. The Commander of Northern Command has outlined a series 
of tests and experiments of a homeland cruise missile defense. Do you 
support this initiative? What countries are the principal threats?
    Do you agree with the Commander that Russian cruise missiles pose a 
rising threat?
    Why is it that we deploy defenses against Russian cruise missiles, 
which may be nuclear-capable, but not Russian ballistic missiles?
    Ms. Bunn. Yes, I support those initiatives by the Commander of 
USNORTHCOM. I am happy to discuss this further in a classified setting.
    The ballistic missile defenses deployed for the protection of the 
U.S. homeland are designed to counter a ballistic missile attack from 
states such as North Korea and Iran. Development and fielding of a 
system to address the numbers and sophistication of Russian and Chinese 
long-range ballistic missiles would be technically impractical and 
prohibitively expensive.
    Mr. Rogers. According to the GAO, ``although the dates MDA plans to 
declare technical capability for EPAA have not changed, the capability 
to be delivered and the understanding of its performance is more 
limited than initially planned.'' Ms. Bunn, please explain what is 
going on here. Can you please provide the committee this week the 
detailed technical requirements for the EPAA?
    Ms. Bunn. The European Phased Adaptive Approach (EPAA) is intended 
to protect U.S. forces and NATO European populations and territory from 
ballistic missiles launched from the Middle East.
    The first EPAA phase became operational in 2011. The next two 
phases remain on schedule with supplemental upgrades to be delivered as 
they are developed, tested, and deployed. That means there will be an 
operational missile defense site in Romania in 2015 and another site in 
Poland in the 2018 timeframe, along with the deployment of more capable 
versions of the Standard Missile-3 interceptor.
    Planned evolutionary upgrades for elements of the ballistic missile 
defense system are typical for any deployed system, and delivery of 
upgrades will not negatively affect the ability of each element to 
remain fully operational.
    I defer to Admiral Syring for the detailed technical requirements 
for U.S. missile defense capabilities in Europe.
    Mr. Rogers. Is the Administration considering a NATO common pool of 
SM-3 interceptors should the European Allies upgrade their ships with 
the SM-3 capable launchers and radars?
    Ms. Bunn. The Administration is open to all options that could 
enhance European missile defense. Discussions about the creation of a 
Standard Missile (SM)-3 interceptor pool have taken place at NATO. The 
United States has encouraged Allies to make contributions to NATO 
missile defense and would welcome Allied contributions to a common 
interceptor pool. To date, no NATO European country possesses surface 
combatants capable of firing SM-3 interceptors, and no NATO European 
country has announced plans to modify its ships to do so.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. After three back-to-back flight intercept tests (two 
CE-II and one CE-I failures), are you confident we have a reliable and 
effective missile defense system?
    General Mann. Yes. Although we have experienced a series of 
unsuccessful tests, the Warfighter remains confident in our operational 
capability to defend against a limited ballistic missile attack. Our 
confidence is based on the successful results of the previous CE-I 
flight tests, the January 2013 non-intercept controlled flight test of 
the CE-II ground-based interceptor, the present operational employment 
guidelines, and the Missile Defense Agency's ongoing testing, 
modifications, and failure review board results.
    Mr. Cooper. With North Korea and Iran developing additional 
capabilities, are we staying ahead of the threat or are we currently 
catching up to the threat? Can we reliably stay ahead of the threat?
    General Mann. The Ballistic Missile Defense System currently 
provides the capability to defend the homeland against a limited 
ballistic missile attack from either country. As their ballistic 
missile abilities mature, we must continue to enhance key system 
components, such as sensor discrimination capabilities and the 
reliability of the exoatmospheric kill vehicle, to remain ahead of the 
intercontinental ballistic missile (ICBM) threat. Predictable 
resources, the correct test cadence, and focusing on the most urgent 
priorities, will greatly assist in outpacing a limited ICBM threat to 
the homeland.
    Mr. Cooper. Where would you spend your next dollar?
    General Mann. Improving our sensor capabilities is the Warfighter's 
highest Ballistic Missile Defense System priority. Persistent sensor 
discrimination and enhanced tracking capabilities will provide 
immediate qualitative improvements for countering ballistic missile 
defense threats. The next Warfighter priority is increasing ground-
based interceptor reliability by redesigning the exoatmospheric kill 
vehicle.
    Mr. Cooper. Please explain the rationale for focusing on midcourse 
defense, rather than boost-phase missile defense?
    General Mann. The Missile Defense Agency developed and deployed 
mid-course systems because the technology was more mature than boost-
phase systems and provided the Warfighter earlier capabilities to 
counter a limited ballistic missile threat. The effectiveness of boost-
phase systems is currently limited by intelligence challenges and 
exacerbated by the short reaction time required to counter the threat 
missile. Presently, mid-course defense affords more time to track the 
threat, make threat assessments, perform discrimination missions, and 
engage the target than that of a boost-phase defense system. The 
Missile Defense Agency, as well as each Service, continues to pursue 
and develop technologies, such as high energy lasers, that have 
potential for future boost-phase applications.
    Mr. Cooper. Why is it in U.S. interests for the EPAA to be a U.S. 
contribution to NATO? What would be the impact for U.S. and NATO 
security if a NATO country suffered a missile attack from Iran?
    General Mann. The United States is committed to common defense 
through Article 5 of the North Atlantic Treaty, which provides that an 
attack on one is an attack on all. The United States is contributing 
the European Phased Adaptive Approach (EPAA) to missile defense not 
only to protect Allied cities, but also to protect deployed U.S. 
military personnel and U.S. citizens abroad.
    Mr. Cooper. How did your requests for missile defense funding fare 
in the FY15 budget request? Were your requests prioritized?
    Admiral Syring. The Missile Defense Agency's (MDA) President's 
Budget (PB) 2015 requests were prioritized and well-received. Our PB 
2015 submission fared well especially given the Department's tight 
budget constraints.
    Mr. Cooper. After three back-to-back flight intercept tests (two 
CE-II and one CE-I failures), are you confident we have a reliable and 
effective missile defense system?
    Admiral Syring. Yes, I am confident that we have a reliable and 
effective missile defense system. Based on our analysis of the data 
from the successful January 2013 non-intercept controlled flight test 
of the CE-II GBI (CTV-01), we plan to conduct FTG-06b, an intercept 
flight test, this summer. CTV-01 demonstrated the successful dampening 
of the vibration environments that affected the navigation system and 
resulted in the failure of the FTG-06a mission conducted in December 
2010. FTG-06b will demonstrate the ability of the CE-II EKV to 
discriminate and intercept a lethal object from a representative ICBM 
target scene. The FTG-07 failure investigation is nearly complete. Once 
the investigation is concluded, we will take steps to make any fixes to 
the fleet that need to be made for both the CE-I and CE-II EKVs.
    Mr. Cooper. Will you commit to neither deploy nor procure 
additional ground-based interceptors (GBIs) until we have a successful 
flight intercept test?
    Admiral Syring. Yes. I strongly support fly-before-you-buy 
acquisition. The Missile Defense Agency plans to conduct a successful 
intercept flight test of each GBI configuration before procuring or 
deploying such a configuration.
    Mr. Cooper. With North Korea and Iran developing additional 
capabilities, are we staying ahead of the threat or are we currently 
catching up to the threat? Can we reliably stay ahead of the threat?
    Admiral Syring. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Cooper. Where would you spend your next dollar?
    Admiral Syring. I support the President's budget request for fiscal 
year 2015. The present BMDS design and Concept of Operations (CONOPS) 
represent a performance plateau that the Missile Defense Agency (MDA) 
investment strategy for EKV is formulated to overcome. The MDA 
investment goals reduce the cost of kill vehicle (KV) production; 
improve reliability, capacity, and capability at all inventory levels; 
forestall obsolescence against the evolving threat; and maximize common 
standards and technology across all future interceptor programs.
    The MDA systems engineering process is based on allocating 
integrated BMDS requirements that balance capability and feasibility 
across weapons, sensors, and Command, Control, Battle Management and 
Communications. Consistent with this process and our strategy for 
improving the robustness of our Homeland defense capability, the MDA 
will engineer and allocate integrated system requirements that will 
drive balanced and integrated BMDS development activities for improved 
discrimination and sensor capabilities. These activities executed in 
parallel include development of the Long Range Discrimination Radar 
(LRDR), improved discrimination algorithms and fire control, air and 
space Electro Optical/Infrared capabilities, and the Next Generation 
Kill Vehicle.
    Mr. Cooper. What are the highest priority improvements being sought 
in the redesigned EKV?
    Admiral Syring. The priority for the redesigned exoatmospheric kill 
vehicle (EKV) is to improve reliability and be more producible, 
testable, reliable, and cost-effective in order to eventually replace 
the kill vehicle on our current Ground Based Interceptor (GBI) fleet. 
The redesigned EKV will be built with a modular, open architecture, 
designed with common interfaces and standards, making upgrades easier 
and broadening our vendor and supplier base. We are currently assessing 
concepts, acquisition options, and timelines to test and field the 
redesigned EKV. Our goal is to begin flight testing the redesigned EKV 
in fiscal year (FY) 2018.
    Mr. Cooper. Is there a boost motor production gap? What is the 
acquisition strategy for the 14 additional boosters for test and 
stockpile reliability starting in 2018? And would accelerating 
production of boosters before confirming the new CBAU booster works add 
to the existing acquisition risks, and would it even be needed to avoid 
any potential production break?
    Admiral Syring. No production gap is projected. In addition to the 
planned Ground-based Midcourse Defense (GMD) booster motor buys, the 
Missile Defense Agency (MDA) Targets Program has also started to 
procure similar configurations of these same motors as a reliable 
launch vehicle for their varied target requirements.
    For the additional 14 interceptors, acquisition strategies are 
under consideration. The MDA will propose an acquisition strategy this 
summer for the additional Ground Based Interceptors (GBIs).
    The Consolidated Booster Avionics Upgrade (CBAU) obsolescence and 
reliability upgrade effort is primarily focused on the avionics portion 
of the boost vehicle. The rocket motors themselves are not part of the 
boost vehicle CBAU, their acceleration (or even their slowdown) would 
not increase acquisition risks. Accelerating booster production for the 
additional 14 GBIs is not necessary to fill a production gap but would 
have the potential to unnecessarily ``age'' the booster motors and 
increase storage costs.
    Mr. Cooper. Please explain the rationale for focusing on midcourse 
defense, rather than boost-phase missile defense?
    Admiral Syring. The Ballistic Missile Defense Elements that 
intercept in the midcourse phase were more mature and ready for 
testing, production, and deployment than boost-phase systems. The 
Missile Defense Agency has taken the approach of identifying and 
developing new technologies which could scale up from laboratory 
experiments; and design concepts which, if successfully demonstrated, 
could make future directed energy and kinetic energy boost phase 
intercept concepts both feasible and affordable. The MDA's President's 
Budget (PB) 2015 request continues this approach with significant 
funding allocated for unclassified and classified programs that have 
potential for boost phase applications in the future.
    Mr. Cooper. Do we need to develop 2-stage interceptors earlier 
rather than later? Why/why not?
    Admiral Syring. No. Employing 2-stage ground based interceptors 
(GBI) is under consideration as part of the Department of Defense (DOD) 
directed Homeland Defense Analysis of Alternatives (HLD AoA). The HLD 
AoA is directed by the Office of the Secretary of Defense Cost 
Assessment and Programs Evaluation. Combatant Commands and the Joint 
Staff are participating. After completion of the HLD AoA in late 2014, 
senior leaders will review the alternatives. Development and employment 
of 2-stage GBIs are scheduled for flight testing in FY 2019 and FY 
2020. This is consistent with the current Missile Defense Agency 
Integrated Master Test Plan.
    Mr. Cooper. Why is it in U.S. interests for the EPAA to be a U.S. 
contribution to NATO? What would be the impact be for U.S. and NATO 
security if a NATO country suffered a missile attack from Iran?
    Admiral Syring. The U.S. European Phase Adaptive Approach (EPAA) is 
needed to defend against the Iranian ballistic missile threat (capable 
of striking deployed forces, allies, and partners in Europe). Moreover, 
EPAA has been recognized as the U.S. contribution to North Atlantic 
Treaty Organization (NATO) ballistic missile defense at the Lisbon 
(2010) and Chicago (2012) Summits. I defer U.S.-NATO security issues to 
OSD Policy.
    Mr. Cooper. After three back-to-back flight intercept tests (two 
CE-II and one CE-I failures), are you confident we have a reliable and 
effective missile defense system?
    Ms. Bunn. As a policy official who is often briefed by those who 
develop and operate the system, I am confident that the Ground-based 
Midcourse Defense system can defend the United States against a limited 
intercontinental ballistic missile attack.
    Mr. Cooper. Will you commit to neither deploy nor procure 
additional ground-based interceptors (GBIs) until we have a successful 
flight intercept test?
    Ms. Bunn. Yes; in keeping with the Administration's policy priority 
to ensure that new capabilities undergo testing that enables assessment 
under realistic operational conditions before they are deployed, I will 
not recommend the procurement or deployment of additional interceptors 
until there is a successful intercept test.
    Mr. Cooper. With North Korea and Iran developing additional 
capabilities, are we staying ahead of the threat or are we currently 
catching up to the threat? Can we reliably stay ahead of the threat?
    Ms. Bunn. To date, neither North Korea nor Iran has demonstrated 
the capability to target the United States successfully with a long-
range missile delivery system; however, North Korea's successful Taepo 
Dong-2 space launch in December 2012 and Iran's repeated space launch 
attempts demonstrate a commitment by both regimes to continue their 
pursuit of such a capability. The decisions announced by Secretary 
Hagel in March 2013 related to DOD's planned improvements to the 
Ground-based Midcourse Defense (GMD) system as well as the other 
initiatives reflected in the President's Fiscal Year 2015 budget would 
help to ensure our ability to maintain our advantageous position 
relative to the North Korean and Iranian long-range missile threats to 
the homeland. DOD assesses the state of the North Korean and Iranian 
missile programs continually and, as a matter of policy, remains 
committed to staying ahead of the threat posed by these programs.
    Mr. Cooper. Where would you spend your next dollar?
    Ms. Bunn. My highest missile defense priority is ensuring the 
effectiveness and reliability of our homeland missile defenses. To that 
end, my next dollar of missile defense spending would be focused on 
addressing the reliability issues associated with the interceptor kill 
vehicle, and improving our sensors and discrimination capability.
    Mr. Cooper. Please explain the rationale for focusing on midcourse 
defense, rather than boost-phase missile defense?
    Ms. Bunn. The United States is pursuing technologies that would 
address or mitigate most phases of ballistic missile flight. In 
addition, we are also looking at options left of launch. However, the 
technology and operational concepts associated with midcourse 
intercepts are the most mature. The Administration's focus on deploying 
proven and cost-effective missile defenses to protect the U.S. 
homeland, as well as our deployed forces and Allies, has led to a 
concentration on the most mature systems that have been tested under 
operationally realistic conditions.
    In addition, intercepts in the midcourse phase of flight allow for 
missile defense elements to be placed farther from the adversary. This 
is advantageous for two reasons. First, many of the missile defense 
elements can be placed on U.S. or Allied territory where it can be more 
easily defended and operated on a more permanent basis. Second, because 
the midcourse phase of flight is generally longer and happens later 
than the boost phase, it allows more time to identify a ballistic 
missile launch, then to track and engage the missile effectively.
    Mr. Cooper. Why is it in U.S. interests for the EPAA to be a U.S. 
contribution to NATO? What would be the impact be for U.S. and NATO 
security if a NATO country suffered a missile attack from Iran?
    Ms. Bunn. The United States is committed to common defense through 
Article 5 of the North Atlantic Treaty, which provides that an attack 
on one is an attack on all. The United States is contributing the 
European Phased Adaptive Approach (EPAA) to missile defense not only to 
protect Allied cities, but also to protect deployed U.S. military 
personnel and U.S. citizens abroad.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Do you need additional funds for an East Coast site 
contingency in FY15? Why/why not?
    General Mann. I support Section 227 of the Fiscal Year 2013 
National Defense Authorization Act that directs evaluation and 
environmental impact assessments of potential U.S. missile defense 
sites. From a Warfighter's perspective, there is no need for additional 
funding in Fiscal Year 2015. Should a decision be made to field a third 
U.S. site, there will associated personnel and support costs. The 
Department will plan and request these necessary resources through the 
authorization and appropriations process.
    Mr. Garamendi. What efforts are you pursuing to strengthen homeland 
missile defense?
    General Mann. Both the U.S. Army and the Joint Functional Component 
Command for Integrated Missile Defense (JFCC IMD), as a component of 
the U.S. Strategic Command, are continuing efforts to strengthen 
homeland missile defense capabilities.
    Within the Army, we provide trained and ready missile defense 
forces and capabilities to address today's homeland defense 
requirements. These forces constantly rehearse threat scenarios and 
participate in missile defense exercises and wargames to ensure they 
maintain their high state of readiness. The Army also continues to 
pursue missile defense technologies and to provide critical testing 
assets.
    At JFCC IMD, we continue to collaborate across the military 
enterprise to increase the integration of existing capabilities in 
order to maximize efficiency and effectiveness to protect the homeland. 
Specifically, we work in partnership with U.S. Northern Command, the 
Missile Defense Agency, and the other Combatant Commands to synchronize 
operational-level missile defense planning, identify and address gaps 
and deficiencies within the system, conduct operations support and 
asset management for missile defense forces, and to integrate Joint 
ballistic missile defense training, exercises, and test activities.
    Mr. Garamendi. General Mann, the primary benefit of a potential 
East Coast site, if deployed, would be ``increased battle space.''
    What is the primary benefit of increased battle space? Would 
increased battle space make missile defense more efficient? If so, how? 
Would increased battle space make missile defense more effective? If 
so, how? Is the increased battle space merely more time to fire at 
incoming targets, or more time to evaluate the results of intercept 
attempts?
    Is the Missile Defense Agency seeking to obtain or improve its 
``shoot-look-shoot'' capability? What are the priorities for attaining 
or improving this capability? ? Would increased battle space contribute 
to improving a ``shoot-look-shoot'' shot doctrine?
    What are the Missile Defense Agency's plans for deploying the 
necessary sensors, such as an X-band radar, and discrimination scheme 
that are necessary for a shoot-look-shoot shot doctrine against a 
Middle East threat? Without better sensor capabilities, what would the 
value of an additional site be, especially in comparison with improving 
the existing sites and interceptors?
    General Mann. A third operational missile defense site would 
augment and disperse present ground-based interceptor inventory and 
increase battlespace. The additional time provides the Warfighter 
increased operational flexibility to assess a ballistic missile event, 
react to unusual engagement conditions, and apply the most current data 
to the engagement.
    Increased battlespace does enhance the efficiency and effectiveness 
of countering ballistic missiles. Increasing available reaction time 
can lead to the optimal intercept location of a threat missile and 
provides additional decision time to assess the results. The end result 
of increased battlespace is more efficient and effective use of the 
ground-based interceptor inventory.
    Mr. Garamendi. Do you need additional funds for an East Coast Site 
contingency in FY15? Why/why not?
    Admiral Syring. We support the President's PB15 budget request. No 
additional funds are required for this activity in fiscal year (FY) 
2015. The FY 2014 Department of Defense Appropriations Act provided $20 
million to fund the Continental United States Interceptor Site study, 
contingency plan and Environmental Impact Statement.
    Mr. Garamendi. What will a 10% increase in homeland missile defense 
funding provide? How will it help increase confidence in an effective 
homeland missile defense system?
    Admiral Syring. The program of work supported by the fiscal year 
(FY) 2015 President's Budget (PB) request is sufficiently resourced to 
accomplish the Agency's mission to defend the homeland against a 
limited ballistic missile attack. An additional 10 percent would be 
allocated to top priority areas including improving the exo-atmospheric 
kill vehicle (EKV) and improving sensor discrimination. A redesigned 
EKV would enhance homeland defense by improving the reliability, 
availability, maintainability, testability and producibility of this 
key component. Additional investment in sensor discrimination would 
enhance the ballistic missile defense architecture's ability to 
discriminate and kill a reentry vehicle with a higher level of 
confidence and thereby significantly improve Warfighter shot doctrine. 
Both of these improvements are funded in the FY 2015 PB request and 
additional resources would be used to accelerate currently planned 
efforts.
    Mr. Garamendi. What efforts are you pursuing to strengthen homeland 
missile defense?
    Admiral Syring. The Missile Defense Agency (MDA) President's Budget 
2015 request continues to support extensive improvements to homeland 
missile defense, including the following:
    <bullet>  Deployment of 14 additional Ground Based Interceptors 
(GBI) at Ft. Greely to achieve 44 operational GBIs by 2017
    <bullet>  Fielding a second AN/TPY-2 radar in Japan
    <bullet>  Discrimination improvements for homeland defense 
including development and deployment of a long range discrimination 
Radar, and near-term and mid-term discrimination initiatives
    <bullet>  Upgrade/redesign of the GBI exoatmospheric kill vehicle 
to improve reliability
    <bullet>  Supports the Ground-Based Midcourse Defense Return to 
Intercept program, identifying and correcting across the fleet the 
failures from the FTG-06a and FTG-07 flight tests
    <bullet>  Continued GBI component testing and refurbishing of 
currently deployed GBIs to test and improve their reliability
    <bullet>  Continued construction of the GBI In-Flight Interceptor 
Communication System (IFICS) Data Terminal (IDT) at Fort Drum, New York
    <bullet>  Continued operation of the Sea-Based X-band (SBX) radar, 
and AN/TPY-2 radars
    <bullet>  Continued procurement of THAAD interceptors
    <bullet>  Procurement of THAAD equipment for an additional battery 
by 2019
    <bullet>  Preparation of a contingency plan and Environmental 
Impact Statement for a potential future Continental United States 
Interceptor Site
    <bullet>  Continues missile defense upgrades of the Early Warning 
Radars in Clear, Alaska and Cape Cod, Massachusetts
    Mr. Garamendi. Admiral Syring, the primary benefit of a potential 
East Coast site, if deployed, would be ``increased battle space.''
    What is the primary benefit of increased battle space? Would 
increased battle space make missile defense more efficient? If so, how? 
Would increased battle space make missile defense more effective? If 
so, how? Is the increased battle space merely more time to fire at 
incoming targets, or more time to evaluate the results of intercept 
attempts?
    Is the Missile Defense Agency seeking to obtain or improve its 
``shoot-look-shoot'' capability? What are the priorities for attaining 
or improving this capability? ? Would increased battle space contribute 
to improving a ``shoot-look-shoot'' shot doctrine?
    What are the Missile Defense Agency's plans for deploying the 
necessary sensors, such as an X-band radar, and discrimination scheme 
that are necessary for a shoot-look-shoot shot doctrine against a 
Middle East threat? Without better sensor capabilities, what would the 
value of an additional site be, especially in comparison with improving 
the existing sites and interceptors?
    Admiral Syring. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Garamendi. Do you need additional funds for an East Coast Site 
contingency in FY15? Why/why not?
    Ms. Bunn. The requested funding for site evaluation and 
environmental impact studies at the locations identified by the Missile 
Defense Agency is sufficient. Funding for any additional activity with 
regard to an additional missile field in the United States would be 
premature at this time.
    Mr. Garamendi. What will a 10% increase in homeland missile defense 
funding provide? How will it help increase confidence in an effective 
homeland missile defense system?
    Ms. Bunn. The program of work supported by the fiscal year (FY) 
2015 President's Budget (PB) request is sufficiently resourced to 
accomplish the missile defense mission of defending the homeland 
against limited ballistic missile attack. An additional 10% would be 
allocated to top priority areas including improving the exo-atmospheric 
kill vehicle (KV) and improving sensor discrimination. A redesigned EKV 
would enhance homeland defense by improving the reliability, 
availability, maintainability, testability and producibility of this 
key component. Additional investment in sensor discrimination would 
enhance the ballistic missile defense architecture's ability to 
discriminate and kill a reentry vehicle with a higher level of 
confidence, and therefore should allow NORTHCOM to use a more efficient 
allocation of interceptors in the future. Both of these improvements 
are funded in the FY 2015 PB request, and additional resources would be 
used to accelerate currently planned efforts.
    Mr. Garamendi. What efforts are you pursuing to strengthen homeland 
missile defense?
    Ms. Bunn. We are committed to ensuring the reliability and 
effectiveness of the current Ground-based Midcourse Defense (GMD) 
system through testing and addressing reliability issues with the 
interceptor kill vehicle.
    In addition, the refurbishment of Missile Field 1 at Fort Greely, 
Alaska, is underway, and the budget request includes funding for the 
emplacement of additional Ground-based Interceptors (GBIs) at Fort 
Greely, for a total of 44 deployed interceptors by the end of 2017.
    We are also on track to deploy a second forward-based missile 
defense radar in Japan. This deployment will provide improved early 
warning and tracking of missiles launched from North Korea at the 
United States.
    The budget request includes funding for a redesigned kill vehicle 
that will improve the reliability and effectiveness of the GMD system. 
The redesigned kill vehicle will improve the reliability and 
performance of the GBI, and will be easier to build, upgrade, and 
maintain than the current versions.
    The President's Fiscal Year 2015 Budget request also includes 
funding for development of a Long-Range Discrimination Radar. This 
radar would provide persistent sensor coverage and improve 
discrimination capabilities against threats to the United States from 
North Korea.
    We are conducting Environmental Impact Studies for a potential 
third missile site in the United States to field additional 
interceptors if required.

                                  [all]
</pre></body></html>
